<html>
<title> - ILLEGAL DRUGS: ECONOMIC IMPACT, SOCIETAL COSTS, POLICY RESPONSES</title>
<body><pre>[Senate Hearing 110-754]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-754
 
    ILLEGAL DRUGS: ECONOMIC IMPACT, SOCIETAL COSTS, POLICY RESPONSES

=======================================================================

                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 19, 2008

                               __________

          Printed for the use of the Joint Economic Committee



                  U.S. GOVERNMENT PRINTING OFFICE
44-772                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

SENATE                               HOUSE OF REPRESENTATIVES
Charles E. Schumer, New York,        Carolyn B. Maloney, New York, Vice 
    Chairman                             Chair
Edward M. Kennedy, Massachusetts     Maurice D. Hinchey, New York
Jeff Bingaman, New Mexico            Baron P. Hill, Indiana
Amy Klobuchar, Minnesota             Loretta Sanchez,  California
Robert P. Casey, Jr., Pennsylvania   Elijah Cummings, Maryland
Jim Webb, Virginia                   Lloyd Doggett, Texas
Sam Brownback, Kansas                Jim Saxton, New Jersey, Ranking 
John Sununu, New Hampshire               Minority
Jim DeMint, South Carolina           Kevin Brady, Texas
Robert F. Bennett, Utah              Phil English, Pennsylvania
                                     Ron Paul, Texas

                  Michael Laskawy, Executive Director
             Christopher J. Frenze, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                                Members

Hon. Jim Webb (presiding) a U.S. Senator from Virginia...........     1
Hon. Robert C. Scott, a U.S. Representative from Virginia, 
  invited to attend hearing......................................     4

                               Witnesses

Statement of Dr. Peter Reuter, professor, School of Public Policy 
  and Department of Criminology, University of Maryland, College 
  Park, Maryland.................................................     7
Statement of John Walsh, senior associate for Drug Policy, 
  Washington Office on Latin America, Washington, DC.............    10
Statement of Anne Swern, first assistant district attorney, Kings 
  County, Brooklyn, New York.....................................    13
Statement of Norma Fernandes, community coordinator, Kings County 
  district attorney's office, Brooklyn, New York.................    16

                       Submissions for the Record

Prepared statement of Senator Jim Webb w/attachments.............    34
    Chart entitled, ``High School Seniors Have Easy Access to 
      Illegal Drugs''............................................    36
    Chart entitled,``Half a Million in Custody on Drug Charges, 
      Up Thirteen Times in 25 Years''............................    37
Prepared statement of of Dr. Peter Reuter, professor, School of 
  Public Policy and Department of Criminology, University of 
  Maryland, College Park, Maryland...............................    38
Prepared statement of John Walsh, senior associate for Drug 
  Policy, Washington Office on Latin America, Washington, DC.....    47
Prepared statement of Anne Swern, first assistant district 
  attorney, Kings County, Brooklyn, New York.....................    54
Prepared statement of Norma Fernandes, community coordinator, 
  Kings County district attorney's office, Brooklyn, New York....    60
Statement Submitted for the Record: Director John P. Walter, 
  Executive Office of the President, Office of National Drug 
  Control Policy, Washington, DC.................................    62
Chart entitled, ``U.S. Incarceration Rate Highest in the World''.    70


    ILLEGAL DRUGS: ECONOMIC IMPACT, SOCIETAL COSTS, POLICY RESPONSES

                              ----------                              


                        THURSDAY, JUNE 19, 2008

             Congress of the United States,
                          Joint Economic Committee,
                                                    Washington, DC.
    The Committee met at 10 a.m. in room SD-106 of the Dirksen 
Senate Office Building, the Honorable Jim Webb, presiding.
    Senators present. Klobuchar and Webb.
    Representatives present. Hill, Hinchey, and Scott.
    Staff present. Christina Baumgardner, Gordon Brady, Nate 
Brustein, Jared Craft, Chris Dodge, Stephanie Dreyer, Chris 
Frenze, Tamara Fucile, Rachel Greszler, Colleen Healy, Doug 
Ierley, Tyler Kurtz, and Jeff Schlagenhauf.

    OPENING STATEMENT OF HON. JIM WEBB, A U.S. SENATOR FROM 
                            VIRGINIA

    Senator Webb [presiding]. The Committee will come to order.
    I would first like to express my appreciation to Chairman 
Schumer for allowing us to hold this hearing and for allowing 
me the opportunity to chair it.
    I'd also like to express my appreciation to our witnesses 
for arranging their schedules to be with us today. Following my 
opening statement, we will call on other Members who are 
present to make opening remarks.
    We are gratified we have Congressman Bobby Scott of 
Virginia with us today, and I know he is looking forward to 
making some comments, and there will be other Members of this 
Committee in and out as the hearing progresses.
    This hearing follows a JEC hearing that I chaired last fall 
regarding the larger issue of incarceration in this country, 
and one of the issues that we were focusing on then was the 
incredible growth in the numbers of people in this country who 
are incarcerated and who are otherwise a part of the criminal 
justice system.
    I mentioned then that we have 5 percent of the world's 
population and 25 percent of the world's known prison 
population, and this is a conundrum, I think, that affects our 
country in many, many ways. Most of us--all of us, I think--
want to get our arms around violent crime; we want to do 
something about criminal gang activity.
    But at the same time, when you have that percentage of the 
world's known prison population, you have to come to one of two 
conclusions: Either we have the most evil people in the world, 
or we are doing something wrong with the way that we handle our 
criminal justice system, and I choose to believe the latter.
    The central role of drug policy in filling our Nation's 
prisons makes it clear that our approach in curbing illegal 
drug use is not, and has not been an effective way of dealing 
with it.
    This is a poignant day in history to hold this hearing. On 
this day in 1986, the University of Maryland college basketball 
star, Len Bias, died from a cocaine overdose.
    The enormous media coverage surrounding his death firmly 
placed the issue of drugs at the center of our political stage. 
The Anti Drug Abuse Act, which established mandatory minimum 
sentences for drug offenses, was signed only 4 months later.
    We often talk about the issue of unintended consequences 
when it comes to beginning wars, but certainly I cannot imagine 
that the tragic death of someone like Len Bias and the 
situations that we have seen so visibly in our media among top 
film stars, athletes, that represent the tip of the iceberg 
with what has happened in this country, are the direction that 
many people in our country thought these policies would go when 
the criminal drug policies began to change 22 years ago.
    Understanding how illegal drugs affect our society involves 
a complex matrix of issues. We begin with the fact that the 
illegal drug market is enormous, and it is lucrative. In 
economic terms, I believe you would probably call it a demand-
pull problem, that the rest of the world looks at drug use in 
this country and provides a supply to meet the demand that's 
here.
    The United Nations Office on Drugs and Crime estimates that 
the United States, Canada, and Mexico account for 44 percent of 
global retail drug sales, totaling tens of billions of dollars, 
and I would venture that that's a conservative estimate.
    The total economic costs of all of the factors associated 
with drug abuse in the United States have been estimated at 
$182 billion a year. To offer a context for understanding the 
enormity of the drug trade, global exports of wine and beer are 
equivalent to only one-quarter of illegal drug flows.
    To meet our enormously profitable and insatiable demand for 
drugs, there are innumerable ready suppliers in this country 
and outside our borders. The Economist Magazine report several 
months ago, that marijuana is now California's most valuable 
agricultural crop.
    As the article mentioned--I will read a quote directly: 
``Marijuana is now by far California's most valuable 
agricultural crop, worth even more than the State's famous wine 
industry.''
    The article also went on to point out that four-fifths of 
the outdoor marijuana plantations in California are now run by 
Mexican criminal gangs.
    There's an article in the Washington Post this morning 
addressing the issue of coca cultivation in Colombia and other 
countries in Latin America. In fact, one of our witnesses is 
quoted in this article, but they point out that Colombian 
farmers planted 245,000 acres of coca last year, 27 percent 
more than in 2006. Coca cultivation in the world's three top 
producers--Colombia, Peru, and Bolivia--increased by 16 percent 
between 2006 and 2007, to 448,743 acres, which is a piece of 
land slightly smaller than the State of Delaware.
    They also pointed out in this article that these findings 
follow almost 8 years of heavy aerial fumigation of drug crops 
in Colombia, an American designed strategy that has cost more 
than $5 billion.
    Strategy Forecasting, Incorporated estimates that at least 
half of the $65 billion worth of illegal narcotics purchased in 
the United States each year comes through Mexico.
    Efforts to half the flow of drugs into our country have 
done little to limit supplies. Instead, we are witnessing a war 
on our border. Some would call it a classic counterinsurgency, 
insurgency and counterinsurgency.
    Since President Calderon launched an offensive against drug 
gangs and cartels over a year ago, approximately 4,100 people 
have died, including 450 Mexican police officers and soldiers. 
President Calderon has declared that his government sees it as 
a war, and the United States State Department issued a warning 
last May, that the engagements on the Mexican streets are, 
quote, ``equivalent to military small unit combat.''
    While we are spending enormous amounts of money to 
intercept drug shipments at the border and inside the country, 
supplies remain consistent. We have a chart we're going to put 
up here from 2006.
    [The chart entitled, ``High School Seniors Have Easy Access 
to Illegal Drugs'' appears in the Submissions for the Record on 
page 36.]
    I look at this chart as someone who came of age as a Baby 
Boomer. When I was in high school, nobody even knew what these 
drugs were. They simply were nonexistent. Of course, 5 years 
later, we had Woodstock and the Drug Generation move forward.
    This was a transitional period, but we've gone, in the 
space of my young adult to adult lifetime, from a situation 
where kids in high school didn't even know what these drugs 
were, to now in 2006, despite all of these efforts that we've 
made, that 86 percent of high school students in America report 
that it is very easy or fairly easy to obtain marijuana; 47 
percent report the same for cocaine; 39 for percent for crack; 
and 27 percent for heroin.
    Success in curbing drug imports should be accompanied by an 
increase in price. Cocaine prices, instead, have fallen by 
approximately 80 percent since the 1980s.
    There is some indication that there might have been an 
increase in that price in 2007, but still these prices are well 
below the levels of the 1990s. Simultaneously, efforts to curb 
illegal drug use in our country have relied heavily on 
enforcement.
    The number of drug arrests tells a story of the growth in 
our prison population. This chart shows the number of people in 
custody on drug charges, indicating that they have increased 13 
times in the last 25 years, and despite the number of people we 
have arrested, the illegal drug industry and the flow of drugs 
to our citizens remains undiminished.
    [The chart entitled, ``Half a Million in Custody on Drug 
Charges, Up Thirteen Times in 25 Years'' appears in the 
Submissions for the Record on page 37.]
    The arrest numbers also tell another story. Convictions and 
collateral punishments are devastating our minority 
communities.
    When it comes to incarceration for drug offenses, the 
racial disparities are truly alarming. Although African 
Americans constitute 14 percent of regular drug users, 
statistics indicate that they are 37 percent of those arrested 
for drug offenses, and 56 percent of those in State prisons for 
drug crimes.
    The last piece of the drug puzzle in this matrix, is the 
need to clean up drug-dependent Americans, some of whom are 
inside our prisons and some who are not. Alternatives to 
enforcement have shown that a variety of approaches can 
successfully reduce incarceration, improve public safety, and 
produce social benefits in excess of their costs.
    Diversion programs and drug courts are two of the promising 
examples that offer better outcomes. Our current combination of 
enforcement, diversion, interdiction, treatment, and prevention 
is not working the way that we want it to or that we need it 
to, and despite the overwhelming facts--the ease with which 
drugs can be obtained, the price of drugs, the number of people 
in prison, the violence along our border--there's been little 
effort to take a comprehensive look at the relationship among 
the many interlocking pieces of this policy.
    We need to rethink our responses to the health effects, to 
the economic and social impacts, the violence, and to the crime 
associated with illegal drug use. And we also need to 
reconsider our approach to the supply of and the demand for 
drugs.
    The central challenges for our witnesses today--we are 
grateful to have people with a broad variety of experiences in 
this issue who can help us examine it from different 
viewpoints--is to assist us in pointing our way toward 
effective solutions.
    We are grateful for all of you to be here today, and with 
that, I would recognize Congressman Scott.
    [The prepared statement of Senator Webb appears in the 
Submissions for the Record on page 34.]

       OPENING STATEMENT OF HON. ROBERT C. SCOTT, A U.S. 
                  REPRESENTATIVE FROM VIRGINIA

    Representative Scott. Thank you, Mr. Chairman. I want to 
thank you and Members of the Committee for holding today's 
hearing on the cost of the United States Drug Policy and for 
allowing me to participate in it.
    It is fitting that this Committee has scheduled a hearing 
to discuss the impact on our society of the War on Drugs and 
our continued emphasis on incarceration, and the obvious 
Committee jurisdiction intent is measuring that impact from an 
economic perspective.
    So, Senator, thank you very much for holding the hearing, 
and thank you for permitting me to participate.
    I serve as Chairman of the House Judiciary Committee's 
Subcommittee on Crime and from that perspective, I have 
frequently observed that when it comes to crime policy, we have 
to make a choice. We can do what we know will reduce crime, or 
we can play politics.
    Unfortunately, you can't do both. We can do what has been 
proven to reduce crime, utilizing cost-effective programs that 
prevent crime, or we can play Washington politics and pursue 
the emotional approach of mandatory minimum sentences, three 
strikes and you're out, life without parole, more death 
penalties and cut out the appeals, and if it rhymes, it's even 
better: If you do the adult crime, you do the adult time.
    These are policies that make it sound like we're doing 
something on crime--like cracking down on crime, but in 
actuality, we're doing nothing about the crime rate, wasting 
money, or even worse, actually increasing crime in many 
circumstances.
    For the past 25 years, we've continued to place our crime 
policy emphasis on the soundbite approaches, and this is where 
it's gotten us, in terms of incarceration rates.
    This chart shows that most countries--the green bars, lock 
up between 50 and 200 per 100,000 population. Second place, 
Russia locks up a little more than 600, but the United States 
is number one, the blue bar, at over 700 per 100,000.
    [The chart entitled, ``U.S. Incarceration Rate Highest in 
the World'' appears in the Submissions for the Record on page 
70.]
    The Pugh study recently pointed out that only one country, 
the United States, locks up more than 1 percent of its 
population. We are at the point where 1 out of 99 Americans 
today can be found behind bars.
    We also crack down on children. Of 2,200 children in jail 
on life without parole sentences--2,200 around the world--only 
12 are outside of the United States.
    The minority community, where the War on Drugs has been 
most acute, the crack/powder disparity, the economic choices 
that we're making, we see the purple bar, the first purple bar 
at 2,200, which is the average incarceration rate for African 
Americans in this country; the second bar, almost 4,000 per 
100,000, the top 10 States, compared to the rest of the world, 
50 to 200, 2,200 to 4,000 per 100,000 locked up today.
    It's so bad that the Children's Defense Fund calls it the 
``Cradle-to-Prison Pipeline.'' Some communities call it the 
``Rail-to-Jail.'' And while these draconian incarceration rates 
have been the strategy, we have found that they have done 
little to actually reduce crime, when we know what will 
actually work.
    We know that a continuum of services to young people will 
reduce violent crime, starting with teen pregnancy prevention 
to reduce the number of babies born into dysfunctional 
families; prenatal care, which will reduce learning 
disabilities and mental retardation; nurse visits, which will 
reduce child abuse and prepare children for school; early 
childhood education, to make sure that the children can read by 
the third grade; after-school programs; summer jobs and summer 
programs; dropout prevention; and access to college, 
essentially creating not the cradle-to-prison pipeline, but the 
cradle-to-college pipeline.
    We know that that strategy will significantly reduce crime 
in a cost-effective manner. But while we have been focused on 
incarceration, we know that this choice is not free.
    We now spend about $65 billion in America locking people 
up. In my district, we did an informal study and showed that 
cities were spending tens of millions of dollars in locking 
people up, and it worked out to be about $250 to $500 per 
citizen or about $1,00 to $2,000 per child, or if you target 
the money to at-risk children, as much as $5,000 per at-risk 
child that we spend--budgeted today--locking people up.
    Now, if you look at somewhere like Los Angeles, they spend 
in the same pattern, over $2 billion a year locking people up.
    So we make choices. You can have--as Senator Webb 
mentioned--drug courts where we spend around $1,600 a year per 
participant and have about less than a 20 percent recidivism 
rate.
    Or we can have mandatory minimums and lock people up at 
about $15,000 to $25,000 per year, and have a two-third 
recidivism rate. We can spend more for incarceration, and in 
fact, get more crime.
    I think the Joint Economic Committee has an interest in 
that. Nurse/family partnerships where nurses come to visit 
pregnant women and work with the family through infancy reduces 
child abuse, prepares the child for school, saves more money in 
the long run by reducing problems, particularly incarceration--
long-term good economic policy.
    Head Start. Reducing remedial education, welfare, and crime 
is a good long-term policy because it reduces long-term costs.
    Dropout prevention. If a child drops out, look where you're 
headed. In the minority community, studies have shown that for 
26 to 30-year-old African American men who have dropped out of 
school, they are more likely to be in jail when they're 26 to 
30, than actually working.
    Now, if you've got areas where you've got a 50-percent 
dropout rate, and for every 10 males that drop out, we're on 
the hook today for $250,000, approximately, just how much would 
it cost to have an effective dropout prevention program?
    That's what the Joint Economic Committee needs to be 
looking at. So, Senator Webb, I want to thank you and the 
Members of the Joint Economic Committee for holding this 
hearing, so that more Members of Congress will understand the 
enormous societal and fiscal cost of continuing the failed drug 
policies of this country that we have been designated as the 
so-called War on Drugs, and maybe we can use the findings from 
these hearings to develop a more enlightened drug policy. Thank 
you very much, Senator Webb.
    Senator Webb. Thank you, Congressman Scott.
    I'd like now to introduce today's witnesses. Professor 
Peter Reuter is a professor at the School of Public Policy in 
the Department of Criminology at the University of Maryland. He 
founded and directed Rand's Drug Policy Research Center.
    He has written extensively on the economies of drug issues. 
In 2001, he co-authored ``Drug War Heresies: Learning From 
Other Places, Times, and Vices,'' and ``Chasing Dirty Money: 
The Fight Against Money Laundering.''
    He is a director of the university's Program on the 
Economics of Crime and Justice Policy. Dr. Reuter received his 
Ph.D. in economics from Yale.
    John Walsh is the senior research associate for the Andes 
and Drug Policy at the Washington Office on Latin America. He 
writes on international drug control efforts and U.S. drug 
policy.
    Previously, Mr. Walsh served as the director of research at 
Drug Strategies, a policy research group that builds support 
for more pragmatic and effective approaches to U.S. drug 
problems.
    Anne Swern is the first assistant district attorney of 
King's County, New York. She current supervises more than 1,000 
employees in the D.A.'s office, and oversees three substance 
abuse treatment courts.
    She is also in charge of the nationally acclaimed Drug 
Treat Alternative to Prison Program, the first prosecution-run 
program in the country to divert prison bound felony offenders 
into residential drug treatment.
    Ms. Swern was awarded the Thomas E. Dewey Medal from the 
New York City Bar Association for her work as an outstanding 
prosecutor and for her contributions to public service. She has 
been a prosecutor for 28 years.
    Norma Fernandes is the community coordinator of the King's 
County district attorney's ComALERT Program which assists 
formerly incarcerated individuals in making a successful 
transition from prison to home, by providing drug treatment and 
counseling, mental health treatment, GED courses, and 
transitional housing and employment assistance.
    Ms. Fernandes develops and establishes relationships with 
various agencies that provide vocational training and 
employment services to program participants.
    She has provided social services to the formerly 
incarcerated in a variety of capacities for the past 15 years. 
She is also a distinguished alumnus of the King's County 
district attorney's Drug Alternative to Prison Program.
    We welcome all of you. We had previously said that you 
should summarize your remarks in 5 minutes. It's very important 
for me to hear what your views are, and I would suggest that we 
could do that in 7 minutes, rather than 5.
    Dr. Reuter, it's good to have you, and you may go ahead and 
proceed.

  STATEMENT OF DR. PETER REUTER, PROFESSOR, SCHOOL OF PUBLIC 
 POLICY AND DEPARTMENT OF CRIMINOLOGY, UNIVERSITY OF MARYLAND, 
                     COLLEGE PARK, MARYLAND

    Dr. Reuter. Thank you very much. I appreciate the 
opportunity to testify here and ask that my full testimony 
submitted on Tuesday be entered into the record.
    Senator Webb. Without objection, it will be entered into 
the record.
    Dr. Reuter. I will focus less on the past, which you and 
Congressman Scott have summarized well, and more about talking 
about the future. But let me say a bit about the past.
    America's drug problem--at least as it involves cocaine, 
heroin, methamphetamine, and marijuana--seems to be declining. 
You can see that in terms of the aging of the populations 
involved with both cocaine and heroin, and just the beginnings 
of that aging with methamphetamine.
    The drug problem is certainly less prominent in the public 
eye than it was 20 years ago. The declines are probably mostly 
the natural working out of old drug epidemics rather than the 
result of tough enforcement.
    Nonetheless, these drugs--cocaine, heroin, and 
methamphetamine--continue to cause great harm to the Nation, 
particularly to vulnerable minority communities in the major 
cities. The United States still has a substantially larger drug 
problem than any other western nation, whether measured in 
terms of the prevalence of problematic drug use, or the adverse 
consequences of drugs, including crime and disease, 
particularly HIV.
    U.S. drug policy is comprehensive, but unbalanced. Compared 
to other wealthy nations, it spends more money on drug 
control--about $35 billion, if you add State, local, to 
Federal--and a large share of that, perhaps as much as 75 
percent goes toward enforcement.
    As already mentioned, about 500,000 persons at any one time 
are locked up for drug offenses, mostly low-level drug dealing. 
Treatment is provided to a very modest fraction of those who 
need it. Probably less than one out of five heroin addicts is 
in methadone maintenance. The mechanisms for linking treatment 
and enforcement, which have been a very important part of 
progress in other countries, remain weak.
    Policy measures have met with little success, as already 
noted; prices have fallen, and drugs remain as available as 
ever.
    There are three important effects that are particularly 
hard to measure: Firstly, many children suffer abuse or neglect 
because of their parents' addiction and/or absence because of 
drug-related incarceration.
    Second, inner city neighborhoods have become crime-ridden, 
disorderly, and unsightly, as a consequence of open-air drug 
sales. This has further made miserable the lives of residents 
and driven out investment.
    Third, the possibility of earning large sums of money as a 
successful drug dealer may have led many youth in the same 
communities to abandon education early and enter the drug 
trade, even though in fact, most of them will earn less than 
minimum wages during the first few years of their career and 
have a high risk of being imprisoned.
    Though the UNODC suggests $180 billion for U.S. drug sales, 
I think the best estimate of total revenues from drug selling, 
done in the year 2000, was that it generated about $60 
billion--still a large sum; about 60 percent of that from 
cocaine sales.
    Though great fortunes are made high up in the drug 
distribution chain, most of the money goes to those near the 
bottom, reflecting simply the fact that there are probably 100 
retailers for every high-level dealer that's in this business.
    There have been modest changes in policy that suggest a 
tiring with the War on Drugs approach. Most significant is the 
passage of Prop 36 in California in 2000. Under Prop 36, first 
or second-time arrestees for drug possession were to be 
evaluated for treatment and were not at risk of being sent to 
jail or prison. This has been a major intervention.
    Drug courts, of which there are more than 1,500, also 
represent an effort to deal with drug offenders less harshly 
and more sensitively. However, Arizona is the only other State 
to institute a Prop-36-like system, and though there are 1,500 
drug courts, they deal with only 55,000 clients.
    They constitute a minuscule contribution to the criminal 
justice system, and that largely reflects the very restrictive 
terms of eligibility for entry into that. Most people with long 
heroin and cocaine careers would not be eligible for drug 
court.
    What's most prominent to someone like me about the drug 
policy field is simply the lack of any serious interest in 
analysis of programs and policies.
    Congress has not pressed any administration to justify its 
policy choices in a systematic fashion, but has been content to 
accept the standard rhetoric and argue about details.
    One sign of this neglect of the foundations of policy is 
the absence of Congressional reaction to the failure of the 
Office of National Drug Control Policy to continue to estimate 
the scale of the Nation's drug problem.
    In the 1990s, ONDCP published a series of studies entitled 
``What America's Users Spend on Illicit Drugs.'' The most 
recent report covers 1988 to 2000 and presented for every year, 
estimates of the number of frequent users of cocaine, heroin, 
and methamphetamine, the total quantity they consumed, and the 
money they spent.
    The findings received little attention, but were striking. 
They showed a substantial decline in the number of frequent 
users of both cocaine and heroin, between 1988 and 2000.
    In the 2005 National Drug Control Strategy, there was brief 
reference to an updated report, probably taking the estimates 
through 2003. That report has never been published, nor has any 
other updating appeared.
    It is hardly a secret that ONDCP has refused to publish the 
completed 2005 report, yet Congress has never, to my knowledge, 
publicly questioned ONDCP on its many appearances before 
various Committees.
    These figures are not merely of academic interest; they 
represent the most basic measures of the scale of this Nation's 
drug problem.
    But as important as it is to measure and monitor drug 
problems, even more emphasis needs to be given to providing an 
analytic base for Congress to make its decisions about policies 
and programs.
    Do longer prison sentences for crack cocaine have any 
effect on the share of American cocaine consumption accounted 
for by crack? How much can increased funding for drug 
interdiction efforts by the Coast Guard and Customs Service, 
reduce use of cocaine and heroin? Let me focus on this one.
    The share of cocaine seized by interdiction agencies in the 
last decade, has been high, perhaps as much as 40 percent. That 
good news is countered by the fact that at least until 2007 a 
high seizure rate did not prevent the continued decline of 
cocaine prices and stable availability.
    My interpretation of this comes from simple economic models 
in which there are two inherent limits to the effectiveness of 
interdiction: First, seized cocaine is cheap to replace. The 
import price may be only 15 percent of the retail price.
    Second, there are many routes and modalities available to 
cocaine smugglers; smugglers adapt and limit the effectiveness 
of increased interdiction.
    I think my interpretation is a reasonable one, but it's 
certainly arguable that it has built into it, some economic 
assumptions that can be challenged and have been challenged by 
a long-time collaborator of mine.
    To my knowledge, no government grant has ever been given to 
explore this matter, yet this analysis is essential to any 
serious assessment of the drug interdiction program. Would 
increasing the program by a third have any noticeable 
difference?
    Of course, decisions have to be made in the next few years 
and they will be made with whatever information and analysis is 
available. As should be clear from my assessment submitted to 
this Committee, my own view is that the United Sates imprisons 
more people for drug offenses than it ought, provides too 
little treatment services, and fails to find sensible ways of 
linking criminal justice and treatment.
    I hope that Congress will undertake a more systematic 
approach to drug policy in the future, and examine more than 
marginal changes. Thank you.
    [The prepared statement of Dr. Peter Reuter appears in the 
Submissions for the Record on page 38.]
    Senator Webb. Thank you, Dr. Reuter.
    Mr. Walsh.

  STATEMENT OF JOHN WALSH, SENIOR ASSOCIATE FOR DRUG POLICY; 
       WASHINGTON OFFICE ON LATIN AMERICA, WASHINGTON, DC

    Mr. Walsh. Thank you, Chairman Webb, Congressman Scott, 
Congressman Hinchey. I'm honored to testify before the 
Committee today about U.S. drug policy.
    My organization, the Washington Office on Latin America, 
has for years done research and advocacy in support of drug 
policies that respect human rights and reduce drug-related 
harm. We're also part of an international network called The 
International Drug Policy Consortium that promotes open debate 
and evidence-based drug policies.
    Within a matter of months, we all know that there will be a 
new U.S. administration in place. Some of us may not know that 
the United Nations will be issuing a new political declaration 
about the next 10 years' course for global drug control, so 
this is an opportune time for the United States to look 
seriously and debate seriously the direction of our drug 
policies.
    Let me begin on a personal note, reflecting on the fact 
that today is by sheer coincidence, 22 years to the day after 
Len Bias's death. I happened to be a contemporary at 
Georgetown, an undergrad, while he was a University of Maryland 
basketball star, and so it hit me then because I followed his 
career.
    But it was even in a more peculiar way that it hit me. I 
had just begun a year-long volunteer program with the Jesuits 
in Peru, which at the time was the world's largest producer of 
coca leaves, the raw material for cocaine.
    It became immediately clear to me that despite the 
headlines and the aggressive rhetoric, a campaign to forcibly 
eradicate coca was not going to be the way to solve this 
problem, that there were too many people involved, and without 
viable alternatives, people would return to planting the crop.
    Indeed, if we fast-forward more than 20 years later, we can 
see--and as Chairman Webb referred--coca cultivation and 
cocaine production in the Andean region continues apace. I 
refer you to the chart to my left.*
---------------------------------------------------------------------------
    * See ``Andean Coca Cultivation, 1987-2006,'' page 48.
---------------------------------------------------------------------------
    These numbers are the U.S. estimates, which will be updated 
soon. The numbers released yesterday were from the United 
Nations, that indicate a 16-percent increase last year in coca 
cultivation.
    So why do I mention what happened so long ago? The point is 
that U.S. drug policies have been in place for quite some time, 
without much change at all, other than intensification.
    I think we need a stiff dose of this historical reality, as 
we contemplate what to do now. Policies are not only not new, 
but they have never been resource-starved.
    By my own conservative calculations, since 1981, all levels 
of government in the United States have spent at least $800 
billion on drug control; the lion's share, $600 billion of 
that, devoted to supply control, including domestic 
enforcement, but also interdiction and international programs.
    So, since the basic elements have been in place for so 
long, I think we can safely draw some lessons, whether positive 
or negative, about what's worked and what hasn't.
    There are three lessons from looking at the supply side 
over the years: First, what is commonly known as the ``balloon 
effect;'' second, what has already been acknowledged, the 
strong availability and falling prices of drugs like cocaine 
and heroin; and third, what I call the needle in a haystack. 
I'll briefly review these.
    The ``balloon effect'' is essentially where enforcement 
pressure squeezes the market in one place at one time. Like the 
air in a balloon, it moves to another part.
    We've seen this time and time again, not just in terms of 
pressure against coca crops, but also pressure against 
enforcement routes. And if we look at the situation of drug 
trafficking in Mexico today, realize that the Colombian 
traffickers shifted from their Caribbean and South Florida 
routes into the United States, to Mexico, and partnered with 
already-existing Mexican criminal organizations, giving rise to 
the fearsome Mexican cartels that we know today.
    This is the ``balloon effect.'' It's fully relevant today. 
Some U.S. officials have said that it's dead, it's gone; 
unfortunately, the air is still very much in the balloon, and 
we can't wish it away; we need to deal with it.
    For instance, if we're talking about reducing illicit crops 
and we know that forced eradication is going to generate 
replanting, then we need to understand that alternatives need 
to be in place before pressure or any eradication takes place.
    The second point is falling prices. It's been a perennial 
goal to drive up those prices, and, therefore, reduce 
consumption. The evidence has shown, however, over the years, 
that prices have not only not been driven up, they have fallen 
rather sharply, as you referred to, Chairman Webb.
    The evidence for disruptions in 2007 seemed certain enough, 
given everything that was taking place in Mexico. The cartel 
infighting, more aggressive operations on the part of the 
Mexican Government, and the likelihood of more cocaine being 
shipped to Europe probably added up to some disruption.
    Whether that will be durable is still an open question, but 
it is doubtful, given the historical record. There have been 
numerous price fluctuations, always followed sooner or later by 
resumed declines in price as the market adjusts.
    An important corollary to this is that if we've never 
really successfully driven up prices for any length of time, 
and therefore reduced availability, any changes in the 
prevalence of drug use that we've experienced over the years 
aren't due to supply control success. That has to be clear.
    The needle in a haystack: Basically, our legal commerce 
with Mexico, in particular, is so huge that it's like finding 
not just a needle in a haystack, but many moving needles in 
many moving haystacks. To imagine that in trade on the order of 
$200 billion a year, with more than a million people and 
300,000 cars and trucks crossing the border every day, we're 
going to be able to seal the borders, I think is delusional.
    At this point, those are the three, I think, hard and fast 
lessons.
    Moving to the trade in Mexico today, obviously, it's 
extremely violent, and we all know that the Merida Initiative, 
which the Mexican and U.S. Governments announced last year is 
under debate for funding. I think what U.S. policymakers need 
to keep clearly in mind is that even if with U.S. assistance 
Mexico is able to grapple better with the extreme violence 
surrounding the drug trade in that country, the idea that there 
is going to be a reduction in the flow of drugs to the United 
States as a result is different and extremely unlikely for the 
reasons I mentioned before.
    To conclude, bearing in mind the persistence of the balloon 
effect, the resilience of the drug markets, the impossibility 
of sealing the borders suggests that U.S. supply control 
objectives and expectations need to be brought in line with 
these realities.
    There are no quick fixes. We need to think about long-term 
and sustained efforts in the source countries to create 
alternative livelihoods and strengthen their justice 
institutions, which would hold promise, over time, for reducing 
the scope and the depredations of the drug industry.
    But that requires patience and a departure from our quick-
fix, results-now mentality that hasn't fixed anything. So, even 
if we focus on treatment at home, focus on enforcement at the 
high level of the trafficking organizations, and promote 
alternative livelihoods, we can't expect any sudden 
improvements. We have to think longer term.
    There's no silver bullet, and I suggest that rather than 
adopt sterile and ineffective approaches, we need to switch to 
what we call a harm reduction approach.
    It recognizes that drugs and drug use are perennial 
problems that won't be eliminated, but we can manage them much 
better than we have thus far. Harm reduction, broadly speaking, 
seeks to minimize the harms associated with illicit drug 
production, distribution, and use, but also minimizes the harms 
generated by policies meant to control illicit drugs.
    Just to conclude, I applaud you, Chairman Webb, and the 
Members of the Committee for holding what should be the 
beginning at this opportune moment, of a more constructive, 
fruitful discussion about the direction of U.S. drug policy, 
both at home and internationally.
    [The prepared statement of Mr. John Walsh appears in the 
Submissions for the Record on page 47.]
    Senator Webb. Thank you, Mr. Walsh.
    Ms. Swern.

  STATEMENT OF ANNE SWERN, FIRST ASSISTANT DISTRICT ATTORNEY, 
                  KING'S COUNTY; BROOKLYN, NY

    Ms. Swern. Mr. Chairman, Members of the Committee, good 
morning and thank you for the invitation to testify today about 
two innovative prosecution-run programs that seek to reduce 
drug abuse, improve public safety, and save money.
    I'd ask that my submitted testimony be entered into the 
record.
    Senator Webb. Without objection, it will be entered into 
the record.
    Ms. Swern. Thanks.
    My name is Anne Swern, and I'm the first assistant district 
attorney to Charles ``Joe'' Hynes, Brooklyn's longest-serving 
district attorney.
    I'll be focusing today on two programs that District 
Attorney Hynes created to combat substance abuse and drug-
related crime. The first program, the Drug Treatment 
Alternative to Prison, called DTAP, diverts addicted chronic 
offenders into long-term, community-based substance abuse 
treatment in lieu of incarceration.
    The second program, ComALERT, focuses on recidivism 
reduction through effective reentry for prison inmates 
returning to their Brooklyn communities.
    With me today is Norma Fernandes, a graduate of DTAP, and 
the community resource coordinator of ComALERT. These 
prosecution-run programs make sound fiscal sense.
    Monies are invested in changing lives and nurturing a 
strong economic base for communities, rather than just poured 
into prisons to house a revolving-door population of addicted 
offenders.
    There are two aspects of these programs that I want to 
emphasize: First, these programs are run by the DA's office. 
Prosecutors should be involved in programs that go beyond the 
reactive approach to crime.
    By spearheading these programs, prosecutors enhance public 
safety and gain the support of those whom they serve. 
Furthermore, because the community knows that the district 
attorney's foremost concern is public safety, the community 
trusts prosecutors to run these programs in a responsible 
manner and minimize any danger.
    Second, these programs, while prosecution-run, are 
nevertheless based upon collaboration with entities normally 
outside the criminal justice sphere.
    Prosecutors are not clinicians. They do not have the 
experience to evaluate or treat the disease of drug addiction, 
however, by joining forces with treatment providers, 
prosecutors can successfully address the root causes of an 
addict's criminal behavior.
    DTAP: In 1990, DA Hynes launched DTAP, which targets 
nonviolent repeat felony offenders with serious drug 
addictions, a population almost entirely overlooked for 
diversion in 1990, and one which even today, is still 
considered by many as too high risk or difficult to divert from 
incarceration.
    DTAP had reduced drug abuse and criminal recidivism and 
offers a cost-efficient option for tackling the twin scourges 
of drug addiction and addiction-motivated crime in the 
communities.
    There are seven core elements of DTAP which are detailed in 
my written testimony.
    CASA, the National Center on Addiction and Substance Abuse 
at Columbia University, conducted a 5-year evaluation of DTAP. 
Researchers concluded that DTAP reduced recidivism. Graduates 
had re-arrest rates that were 33 percent lower, reconviction 
rates that were 45 percent lower, and were 87 percent less 
likely to return to prison 2 years after completing the 
program, than the matched comparison group, 2 years after 
leaving prison.
    Graduates were 3\1/2\ times more likely to be employed 
after completing the program than they were prior to the arrest 
that caused them to enter the program.
    DTAP's results were achieved at half the cost of 
incarceration. CASA calculated that the average cost for a DTAP 
participant was $32,975, compared to $64,338 if that same 
person had been sent to prison.
    Our own analysis of the savings realized on correction, 
healthcare, public assistance, and recidivism costs, combined 
with the tax revenues generated by the graduates, indicates 
that diversion to DTAP resulted in economic benefits of about 
$44 million, thus far.
    DTAP has been replicated throughout New York City and in 
various counties throughout New York State. Federal legislation 
enacted as part of Second Chance will enable more prosecutors 
to follow suit.
    ComALERT: Just as diverting addicted offenders from prison 
into treatment can be an effective means or reducing 
recidivism, promoting public safety, and reducing costs, so 
too, can making sure that ex-offenders receive treatment, 
transitional employment, and other social services, once they 
return to the community.
    DA Hynes created--in close collaboration with community-
based organizations and governmental agencies--ComALERT, 
Community and Law Enforcement Resources Together, a reentry 
program for Brooklyn residents who are on parole and who have 
been mandated to substance abuse treatment.
    At ComALERT's downtown Brooklyn location, clients receive 
outpatient substance abuse treatment from licensed counselors 
and attend individual counseling and group sessions. They are 
regularly tested for drug and alcohol abuse.
    One-third of ComALERT's clients receive a referral to and 
preferential placement in the Ready, Willing, and Able Program, 
which provides transitional employment and other services.
    ComALERT's counseling and periodic drug testing help 
clients maintain sobriety and their enrollment in RWA. Ms. 
Fernandes, ComALERT's Resource Coordinator, links participants 
to a wide range of social services, such as transitional 
housing, vocational training, GED test preparation, family 
counseling, and job readiness programs.
    Service referrals are tailored to meet the needs of the 
individual clients. Professor Bruce Western of Harvard, 
recently completed research evaluating ComALERT.
    Professor Western analyzed recidivism rates of ComALERT 
graduates. Outcome percentages for the graduates was 
substantially better in all categories, when compared to those 
of a matched control group who did not have the benefit of 
ComALERT.
    One year after release from prison, parolees in the matched 
control group were over twice as likely to have been 
rearrested, re-convicted, or re-incarcerated, as the ComALERT 
graduates.
    Even 2 years out of prison, ComALERT graduates showed far 
less recidivism than the parolees of the matched control group.
    As to employment, ComALERT graduates were nearly four times 
as likely to be employed as the parolees in the matched group, 
and also had much higher earnings.
    New York taxpayers pay over $2.5 billion a year to maintain 
prisons. In New York City, it costs $67,000 per year, or $183 a 
day to house an inmate in jail.
    By contrast, ComALERT's drug treatment and case management 
services cost $10 a day, and transitional employment costs $44 
a day, thus saving a significant amount of money.
    Both ComALERT and DTAP offer models that are cost-effective 
means for reducing drug-related crime, one of our Nation's most 
pernicious social problems. Despite decades of well-meaning 
State and Federal efforts to tackle the problem, our country is 
still facing a drug abuse crisis.
    While community-based treatment and other social services 
carry a price tag, their cost is much less than that of 
incarceration in prison, especially when one considers the 
effectiveness of diversion and reentry programs at reducing 
recidivism.
    Many States throughout the country are confronting the 
crippling costs of an exploding prison population.
    DTAP and ComALERT transform lives, improve communities, and 
save money. These programs deserve to be replicated in 
jurisdictions around the country, and Congress should ensure 
that adequate funding is appropriated for that goal.
    [he prepared statement of Ms. Anne Swern appears in the 
Submissions for the Record on page 54.]
    Senator Webb. Thank you, Ms. Swern.
    Ms. Fernandes, welcome.

  STATEMENT OF NORMA FERNANDES, COMMUNITY COORDINATOR, KINGS 
        COUNTY DISTRICT ATTORNEY'S OFFICE, BROOKLYN, NY

    Ms. Fernandes. Good morning, Chairman Webb and the 
Committee. I ask that my testimony be entered.
    Senator Webb. It will be entered into the record.
    Ms. Fernandes. Thank you.
    The youngest of three, I grew up in a dysfunctional 
environment. When I was 11, my mother passed away from 
cirrhosis of the liver. At the age of 15, I dropped out of high 
school because I was addicted to heroin.
    The foundation of my teenage years revolved around jail and 
the street corners of Brooklyn, either selling drugs or, at a 
more desperate time, robbery. Because of my addiction, I didn't 
care who I hurt.
    After many attempts to get sober through a 30-day 
detoxification, as well as time in jail, these experiences did 
nothing to keep me off drugs. Although the time in jail 
prevented me from committing crimes while I was there, it gave 
me only the opportunity to clean out my system, rest, and time 
to think how I would become a better criminal when I would 
eventually be released.
    This was the cycle of my life, up until at the age of 22, I 
decided to enroll into a methadone program. At the time of my 
final arrest, I was on 90 milligrams of methadone and still 
engaging with heroin and charged with the felony-level crime--
sale of a controlled substance.
    I knew I had effectively outgrown my status with the New 
York City Department of Corrections, and would soon find myself 
in an upstate prison. Fortunately for me, Brooklyn DA Charles 
J. Hynes believed in substance abuse treatment alternatives 
instead of prison, and for this, I will always be grateful to 
him.
    I never thought I would ever be able to live my life 
without getting high and committing crimes, however, I was 
given the opportunity to participate in DTAP. I was diverted 
into a program of long-term residential drug treatment instead 
of going upstate to prison.
    Detoxifying off the methadone at Riker's Island, New York 
City's jail, was a nightmare. I lost 45 pounds in less than 2 
months, and I felt like I was going to die. I had no appetite, 
nor was I able to sleep, and my body reacted violently and 
painfully to the awful withdrawal from the methadone.
    It was an agonizing process that included many fights with 
fellow suffers, undoubtedly because I was still sick, 
suffering, and a very angry person during this period. I was 
later mandated to Samaritan Village, a therapeutic community 
located in upstate New York.
    My time spent there will never be forgotten. It wasn't easy 
adjusting to the structured environment and sitting in groups. 
When I arrived to Samaritan Village, I was scared, angry, and 
lonely.
    As time went on, however, I began to learn more about 
myself, the real me, and I can proudly say that Samaritan 
helped me to grow up. I obtained my GED while there, learned 
how to live life soberly and responsibly, and learned how to 
set short- and long-term goals.
    These experiences empowered me and encouraged me to strive 
hard, so I can accomplish anything I want to achieve in life.
    Today, I'm a college graduate and the owner and landlord of 
a four-family building in Brooklyn. I am also a proud single 
parent with a very intelligent, levelheaded daughter.
    I love the person I am today. I have no doubt that had I 
not been offered the chance to enter long-term residential 
treatment, I would not have set any positive goals, nor 
accomplished them, and definitely would not be here today 
sharing this story.
    The only choices guaranteed me in the future that I would 
have faced back then were pretty grim, either becoming a 
recidivism statistic in prison with an even higher sentence, or 
a death statistic, buried in the cemetery somewhere.
    Instead, I have accomplished every goal I've set for myself 
and will continue to be prosperous in everything I do.
    I am now employed by the King's County district attorney's 
office as a resource coordinator for the ComALERT reentry 
program, assisting individuals paroled to Brooklyn in obtaining 
vital supportive services.
    The services include outpatient drug treatment, job 
placement, vocational training, free GED courses, health 
benefits, and VESID entitlements. VESID is Vocational 
Educational Services for Individuals with Disabilities.
    The fact that ComALERT is sponsored by the King's County 
district attorney's office, plays an essential role and has a 
positive impact on each agency providing supportive services to 
our ComALERT clients.
    Even though there are clients who walk into the ComALERT 
initially resistant because the program is sponsored by the 
DA's office, once they become engaged by the reentry program 
and involved in different services provided by ComALERT, they 
are anxious to come back.
    I know how imperative it is for a formerly incarcerated 
individual to have these essential supportive services in order 
to successfully reintegrate back into the community. Supportive 
services are particularly important for a population that is 
high at risk to recidivate because they don't have access to 
effective substance abuse treatment, or have any marketable 
skills to secure employment.
    As a former client, and now a productive community member 
and a social service professional, my personal experiences have 
shown me in a number of ways that programs like ComALERT and 
DTAP are not only effective at restoring lives. Thanks to the 
enlightened thinking of civic leaders like Brooklyn DA Charles 
Hynes, I now also have seen how these programs have solid 
economic and public safety benefits that each and every one of 
us can all enjoy today. Thank you.
    [The prepared statement of Ms. Norma Fernandes appears in 
the Submissions for the Record on page 60.]
    Senator Webb. Thank you very much. We appreciate the 
testimony of all the witnesses from a wide variety of 
perspectives.
    I'm going to propose that we have 7-minute question 
periods. I think that with the types of questions that people 
would like to ask and the interaction that they desire, 5 
minutes probably wouldn't suffice.
    I will begin first by saying that I think it I would agree 
with what Mr. Walsh was talking about, about how important it 
is to be able to discuss the realities of this situation.
    It isn't always a comfortable thing to be able to talk 
about in the American political process, but it needs to be 
addressed.
    From my perspective, this is very much a demand-pull 
problem. I've been skeptical about drug eradication programs. I 
saw some of this in Afghanistan when I was a journalist in 04, 
where they were announcing they were going to go try to 
eradicate these different poppy fields.
    It doesn't work, when you are supplying such an enormous 
thirst on this end. On the one hand, we have to do what Ms. 
Swern and Ms. Fernandes were talking about, and that's find 
ways to address the demand situation in a different way, other 
than locking people up because they have substance abuse 
issues.
    But the other is to be able to focus in a constructive and 
honest way, about how the demand is being fed. I think it is 
correct to say that despite the problems on the border, this 
isn't simply a border problem.
    The statistic that I gave at the beginning of this 
hearing--about 80 percent of the outdoor marijuana plantations 
in California are now being run by Mexican gangs--shows that 
the border has been breached.
    This is a very sophisticated apparatus that is in place. If 
I had to analogize, I would say it's similar to what you see in 
the forces of international terrorism in that it is essentially 
stateless. It works around governmental entities, whether it's 
in Central or South America, or in North America.
    It works in tandem with other activities inside this 
country, which is something that I'm going to ask for your 
thoughts on in a minute. And it has created an incredible 
underground economic apparatus, a very lucrative economic 
apparatus that causes us to have to think really hard about how 
to address it.
    So I think that the first question that I would like to ask 
is for the perspectives of people here on gang activities that 
operate to distribute illegal drugs and how those activities 
also play into other areas such as extortion, smuggling, et 
cetera. This question is for people who have any perspectives 
on that.
    Dr. Reuter. If I might tackle just part of that question, a 
lot of drug distribution is really quite specialized; that is, 
Colombian drug importers seem to be Colombian drug importers, 
not much involved in other activities.
    They are involved in some other activities in their own 
country, but in the United States, they have tended to be quite 
specialized. Drug dealing is high volume in terms of revenues, 
and there's not much incentive to get into anything else, and 
anything else puts this at risk.
    So whereas at the street level, gangs involved in drug 
distribution, certainly in some places, are heavily involved in 
extortion and other activities at the higher levels; I think 
it's quite specialized. In that respect, differs from the Mafia 
of 40 years ago when the Mafia was involved in heroin 
distribution, along with many other things.
    Senator Webb. Mr. Walsh, do you have any thoughts on that?
    Mr. Walsh. Yes. We have done a lot of research with partner 
groups in Central America and Mexico about the youth gang 
phenomena, and it is obviously a high profile issue here as 
well.
    I agree very much with what Peter said about their role, 
which is low level as a mule and at the street level in the 
United States. Don't think of the youth gangs in Latin America, 
Central America that have links to the United States as super 
powerful drug trafficking cartels. They are certainly involved 
in some aspects of the trade, but they tend to be lower down.
    One of the implications of that is if you look at how 
street level enforcement is done, focusing on real nuisance 
areas and street-level open-air dealing, you are going to get--
you can arrest as many people as you want on any given day, but 
they are going to be the lowest level of the market.
    And you can warehouse them, but they will be replaced 
easily. So focusing on the drug distribution attributes of 
youth gangs to the extent that they are there is only one very 
small part of it. The gang issue has to be much more one of 
prevention in all of its facets.
    Senator Webb. Ms. Swern.
    Ms. Swern. Our experience in Brooklyn, at least, is that 
much of the street-level activity is gang related, but it is 
not always the organized kinds of gangs that people think of. 
It can be a group of people that have a street name, or hang 
out at a particular location in public housing, and they 
loosely will refer to them as a gang, but it is not a gang in 
an organized structured sense.
    For example, we get community complaints a lot about drug 
dealing in public housing and other places, and there are a lot 
of different types of ways you can address that as an elected 
district attorney.
    One of the things we have done is long-term investigations 
in some of these public housing developments in Brooklyn. What 
we try to do is--even if at the end of the day there are 50 or 
75 people implicated--we will try to make sure that the people 
at the low level who are addicts get the treatment and get 
diverted, but the people ultimately at the high end of what we 
are seeing get appropriate sentences of incarceration, because 
the community does not want those people coming back to live 
and disturb life in public housing.
    It is a complex problem, but there are gangs related and 
there are gang involvement for sure, but it is not in that 
organized way.
    Senator Webb. What about the more centralized and organized 
larger scale gangs like MS-13?
    Ms. Swern. We see evidence of that of course in Brooklyn. 
We do try to work with our U.S. Attorneys in our more heavily 
resourced agencies that can do long-term investigations to try 
to eradicate them, and of course it transcends our borders of, 
for example, Nassau County, Suffolk County, the other counties 
of New York State and New York City, and that is why we have a 
special narcotics prosecutor in the cty that covers the 
jurisdiction of all five burroughs.
    We do see that, no question about it, the organized gangs 
as well as these loosely formed gangs.
    Senator Webb. Well, I mean--my time is about to run out, 
but let me just ask about that particular aspect, which was 
where I was trying to go at the beginning. Perhaps Mr. Walsh, 
since you have a lot of experience in that region, you've got 
something like a MS-13 which is centrally organized and very 
active in California, but also in Northern Virginia and 
apparently pretty well connected back to a central organization 
and involved not only in drug activity, but reputedly in a lot 
of other activity.
    Mr. Walsh. Right. I think the first point is recognizing 
how entrenched the drug industry is and in particular, how 
Mexican drug trafficking organizations have built on 
preexisting networks within the United States.
    So divide the issues. How are we going to effectively 
address the violence and disorder caused by gangs and help 
people get their lives back on track, and focus enforcement on 
the worst and most vicious and violent in terms of predatory 
crimes and have a realistic appraisal of how much we are going 
to be able to affect the drug trade in terms of market 
availability through those measures.
    I think there is little likelihood of the latter. And I 
think focusing, as has been done for instance in well known 
Operation Cease Fire in Boston, all levels of Federal 
enforcement where the real violence is being done to make it 
clear to the kids--it is mostly kids involved--that the 
penalties are going to be severe unless you stop.
    And then integrate that kind of enforcement-led program 
with the community services that are going to be necessary to 
help keep the calm.
    So it is enormously complex, but those are where the 
debates and those are where the resources need to go, and move 
away from this idea that we are going to somehow shut down the 
trafficking by going after these youth gangs. That is not going 
to happen.
    Senator Webb. My question really was not about local youth 
gangs, just to say it for the third time. My time has run out. 
I may come back to it in a second round.
    Congressman Hinchey.
    Representative Hinchey. Well thank you very much, Mr. 
Chairman. I appreciate your calling this hearing. I think it is 
a very interesting subject.
    I want to express my appreciation to all four of you for 
being here with us. I very much enjoyed listening to what you 
had to say. I thought you are really looking at this in a very 
appropriate and constructive way.
    This is an issue that has been with us for a long time. I 
think that there is a direct relationship to the way in which 
anti-drug enforcement began, just as the amendment to the 
Constitution was put into place which abolished the previous 
period when alcohol production and use was forbidden as a 
Constitutional Amendment.
    I think that the way in which attention has been focused on 
this from the perspective of whether it should be supply or 
demand has been very much wrong. I think if I listened to you 
correctly, that is the essence of what most of you are saying; 
that the focus of attention on supply really does not do 
anything of any value. The real issue here is demand.
    How can you focus on the issue of demand? How can you cut 
back the demand? How can you deal with people who are 
interested in drugs? Because that is the only effective way to 
do it. I think also, as was pointed out, that if you do that--
and Ms. Swern I very much appreciate the experience that you 
talked about; I admire Brooklyn. All the great ideas that I 
know of in the world come from Brooklyn.
    [Laughter.]
    Representative Hinchey. I was particularly interested that 
Ms. Fernandes has had such a great experience in Ellenville, 
which is coincidentally part of the congressional district that 
I represent.
    Ms. Fernandes. Oh, wow.
    Representative Hinchey. And it is a place that I am very 
fond of. So I appreciate the good experience that you had 
there. But my sense is that what you were saying, Ms. Swern, 
the two approaches that you were taking, preventing demand 
first and then dealing with the people--preventing people from 
having to go to prison, and then when people get out of prison, 
dealing with them to make sure that they do not have to go back 
in that situation.
    So I think that what you are saying is exactly the right 
way in which we should approach this. I just would be 
interested in any additional comments that you would like to 
make, and Mr. Reuter, and Mr. Walsh, and Ms. Fernandes, on that 
aspect of this issue.
    Ms. Swern. Well, I would only invite you and anybody who is 
here; we have graduation on July 23. We have it every year--
about 150 people who are graduating the program are celebrated 
by their families and supporters, and the programs are 
represented, and the programs are discussed, and it is--you 
know, we do not do a lot of happy work in the DA's office, so 
it is a really wonderful celebration. So please feel free to 
come to Brooklyn. We have great food there and you can come on 
the 23rd of July if you would like.
    Representative Hinchey. OK.
    Dr. Reuter
    Dr. Reuter. It is really striking that President Bush, in 
meeting with President Fox in 2001, in Crawford, stood on the 
front steps of his ranch and said something that liberals had 
said for a long time. It was of course much more important 
coming from the President: the main reason that drugs are 
shipped through Mexico to the United States is because the 
United States citizens use drugs.
    That was an important statement. And at least in terms of 
the certification process, it ended a lot of useless debate 
about decertifying Mexico. Mexicans could quite reasonably say: 
Let's certify your demand control programs rather than our 
supply control programs.
    The Brooklyn DA's office represents the cutting edge of an 
effort to cut demand. Demand is quite concentrated in a few 
groups, if we focus on cocaine, heroin, and methamphetamine. 
These are user populations that are frequently in touch with 
the criminal justice system. That is the point at which you can 
do something to persuade people to get into treatment.
    Very few people go into treatment because they want to be 
there. Someone more expert on this than I said there is always 
the imprint of somebody's boot on the addict's back as he goes 
through that door, and sometimes that boot has to be the 
criminal justice boot.
    So, finding effective and humane ways of inducing treatment 
entry is absolutely central for cutting the demand for cocaine, 
heroin, and methamphetamine, and programs like that of the 
Brooklyn DA are absolutely the right ones.
    Representative Hinchey. Most of the people in prison in 
this country--I do not know what the percentage is, but my 
guess is at least two-thirds, and maybe even three-quarters of 
the record number of people we have in prison--are there in 
association with drug use in some way.
    The cost of that is enormous, and growing. It just shows 
the ineffectiveness of the Federal policies that we have in 
attempts to deal with this issue.
    So I would be very interested in hearing what you might 
have to suggest, what the Federal Government can do to try to 
focus more attention on this particular problem, but do it in a 
much more effective way than we have been doing over the course 
of many decades.
    In fact, the problem has gotten worse, and I think in large 
measure as a result of Federal activities over that period of 
time.
    Dr. Reuter. If I could speak, I am enthusiastic about a 
program with a rather odd name of ``Coerced Abstinence.'' It 
comes from Mark Kleiman at UCLA. The notion is that there are 
very large numbers of people in the criminal justice system who 
can be motivated to quit drugs by providing them with modest, 
graduated sanctions that are provided promptly and certainly.
    The current probation system, whether it is Federal or 
local--the parole system also--is one in which you test 
positive and the probation officer says nothing. The third 
time, the probation officer says you know you tested positive. 
The fifth time, maybe he says you really should not test 
positive. And sometime about 10, he sends you back to prison 
for 5 years.
    That, by any standard of developing a sanctions system, 
makes no sense. What Kleiman has been trying to do for 20 years 
is persuade legislators, both in Congress and in State 
Legislatures, to take this issue seriously.
    A small number of programs have tried to take the notion 
that what you have to do is test frequently, provide modest 
sanctions immediately and certainly. In these programs you can 
see a real decline in drug taking and criminal activity.
    It is simple. Kleiman has been monomaniacal about it for 20 
years. Any time an audience listens they are persuaded, and yet 
somehow, the system does not carry it through except in very, 
very few cases.
    Ms. Swern. Can I add something to that? When we began our 
program we had what was called a deferred prosecution model. It 
was thought that you do not want to penalize a drug addict for 
being a drug addict, so we are going to hold the prosecution in 
abeyance, let them try treatment, and if the treatment does not 
succeed we are going to continue the prosecution.
    The program existed in that model until 1998. What happened 
was there were very few people in the program. The reason why 
was that for a prosecutor to hold a case in abeyance you have 
to be certain that the case is going to be viable when and if 
the person fails.
    So the kinds of cases that we had to select for that 
deferred prosecution model were undercover sales of drugs where 
buy-money and stash were recovered. That was a very specific 
kind of case.
    So we went to the defense bar and said: What do you want 
from us? You know, we have many more drug addicts than we are 
treating here in this program, and for DTAP--remember it is a 
predicate felon. It is the second or third or fourth felony 
conviction.
    And they said: We want more of our clients in treatment. We 
do not care if you take a plea. Take more kinds of cases. 
Meaning like an observation sale, and possibly some larceny 
cases where victims are involved, where you cannot be sure that 
that victim is going to be around a year, a year-and-a-half 
later if treatment fails.
    So we changed the model to what we called a ``Deferred 
Sentencing Model,'' where the defendant takes a plea up front 
and is told by the judge, by counsel, if you fail you will get 
2 years in State prison, but if you succeed, the case is going 
to be dismissed against you.
    This was what the defense bar wanted. So more of their 
clients got it. But clinically I have to echo what Dr. Reuter 
said. Our retention rate, which is the predictor for success in 
drug treatment, how long you stay in treatment is the best 
predictor of not reoffending and not going back to drugs. The 
1-year retention rate in our program leaped 12 percentage 
points when we went from a Deferred Prosecution Model to a 
Deferred Sentencing Model, because that certainty of 
punishment, even when you are arrested and even when you are 
told, oh, you are tried with a Class B Felony Offense, and it 
is mandatory minimums, and you are going to go 4\1/2\ to 9, was 
not as certain as taking that plea and being told by that Judge 
you are going to prison if you fail.
    The beauty of that program also allows us to give a 
defendant many chances. So if the person is not violent and 
they fail in treatment the first time but are willing to keep 
working and there is a treatment provider willing to take them 
back, we will replace them in treatment to try to give them an 
opportunity for success.
    We researched that as well, where people who fail the first 
time as compared to people who are readmitted and have a second 
and third opportunity; they succeed at the exact same rate as 
the people who fail the first time. So there is no reason not 
to selectively readmit, and in fact, there is every reason to 
bring them to graduation because they are least likely to 
reoffend and least likely to go back to drugs.
    The Chairman. Thank you, Congressman Hinchey.
    Senator Klobuchar.
    Senator Klobuchar. Well thank you much, Mr. Chairman. Thank 
you for having the courage to hold this hearing, something that 
needs to be discussed.
    I come at this from being a former elected prosecutor in 
Hennepin County. In fact, Ms. Swern, I worked with your boss 
before and used some of the models from Brooklyn, not only with 
the Drug Court but also with community prosecution.
    I was reminded of this the other day when we had a group of 
50 high school students outside from Minnesota. I went and met 
with them, and we were questioning, rather strenuously, a 
government official about gas prices. As I was walking in one 
of the high school students said: Amy, is that a murder case 
you have going on in there? And I said, Kind of.
    [Laughter.]
    Senator Klobuchar. But I wanted to talk with you about the 
Drug Court model and how this works. We have had some success 
with this. I have to tell you, when I first came in, there was 
a lot of political pushback on Drug Courts for the obvious 
reasons, and that changed. I saw that change over 8 years.
    A part of it was the costs that we are talking about, and 
part of it was that the Drug Courts, as you have described, 
changed so that they got better results. But there were clearly 
some issues with police about some of them that they did not 
like them.
    Our model is a little different than yours in Hennepin, but 
some of the questions I had were about, do you have gun cases 
in your model, which we had, and we eventually started to try 
to push some of them out.
    Then also how do you distinguish between the people that 
are just in there to make a buck and the people that are 
addicted, which was another criticism of our Drug Court.
    Ms. Swern. Let me just say that we do have three Drug 
Courts in Brooklyn. But what I was speaking about here today 
was the Prosecution Diversion Program, which is DTAP. The 
reason that I distinguish that is because those defendants are 
the people facing mandatory minimums because they previously 
have been convicted of more than one felony offense.
    We do take non-drug cases. We selectively admit. About 20 
percent of the people in DTAP are non-drug cases. We know how 
they do in treatment. The best people in treatment are the 
people who actually have a drug case, either a drug sale or a 
drug possession.
    The next best category of people in treatment are the 
burglars. I just want to make a point here. We are the DA's 
office. If there is a victim involved in your case, if it's a 
larceny, if it's a burglary, we always speak to the victim 
before we allow a person to get diverted from incarceration to 
treatment.
    But I have never had a victim say, no, I do not want to do 
that. If you call as a prosecutor and say this is a better way 
to go, it will keep the community safer, it is more humane for 
the defendant, there has never been a victim that said, no, I 
do not agree with that.
    And especially because it is a DA's office. They know that 
we are not doing it to feel good. We are doing it because it is 
good crime policy and good social policy.
    But there is that difference. We do do diversion for gun 
cases occasionally--you know, New York just raised its minimum 
on a possession of a loaded weapon, and our State Legislature 
is very serious about that.
    We will divert selectively children under the ages of 22 
years old who have not used the gun, just possessed the gun, if 
they are smoking a lot of marijuana and they are drinking. We 
do have programs that are very tailored for the juveniles who 
engage in that.
    We also have a program that we run in our office called 
Youth in Congregation and Partnership where we have volunteer 
congregations throughout Brooklyn--Muslim, Christian, Jewish--
that select three of their members to train under us to become 
mentors. And for a year the youth is directed to that mentor 
committee trained by us to work with them in order to stay in 
school, help them get jobs, help them with social skills, to 
divert them on those cases. That is what we do with the gun 
cases.
    But there are other--robbery cases----
    Senator Klobuchar. How about the dealers who are not really 
addicts and are just making money versus--we had some cases 
where they got through where they should not have probably been 
in the treatment system.
    Ms. Swern. There is a psycho-social assessment by 
clinicians who are licensed by New York State first to decide 
whether or not there is an addiction.
    The other thing that DA Hines did, because he felt that if 
you are an addict you deserve treatment; if you are a predator 
and a trafficker, you deserve prison. But there is a group of 
people in the middle that do not necessarily fall into either 
of those categories.
    So we, with no money, created something called EVAP, 
Employment and Vocational Alternative To Prison. We started to 
screen those people, thinking that they did not have employment 
opportunities, and they did not have vocational opportunities, 
and that is why they were dealing drugs, and we found out that 
most of them did have one and two jobs. They just wanted a 
better way to augment their money.
    Then the question for the DA is what do you do with that 
person? Sending them to prison does not necessarily deter them. 
Sending them to treatment when they are not addicts is the 
worst possible thing. They hamper the treatment for the people 
addicted.
    Senator Klobuchar. Yes.
    Ms. Swern. And so that is a constant challenge for us, and 
especially when we are not funded to do it; it is even more of 
a challenge.
    Senator Klobuchar. Well what I really appreciated, too, was 
your emphasis on the consequences of the carrot and the stick. 
Because one of the bad raps these programs can get is that they 
are just kind of nothing happens.
    I think that has changed over time, and you are not being 
compassionate if you do not have some consequences hanging over 
people's head. And I loved the statistics that you had of the 
difference it made.
    Because one of the things we have been trying in our State 
is some bifurcated sentencing, even with drunk drivers, where 
they do serve some time but then the rest is hung over their 
head, and that is what you are describing where you actually 
prosecute the case, but the time is hanging over their head. So 
I appreciated that that was an element of the Drug Court.
    The last thing I just wanted to ask about was results' 
driven treatment, and measuring of treatment programs. One of 
the things--and then I got elected to the Senate, so I could 
not keep focusing on it--was looking at these different 
treatment programs, because they are not all alike.
    Our State is--our license plate says ``Land of 10,000 
Lakes,'' but the joke is that it is the land of 10,000 
treatment programs. But we have some amazing treatment programs 
in Minnesota, and one of the lowest incarceration rates in the 
country. We use probation more.
    We have looked at national studies on this, because as we 
look as trying to roll this out more on the Federal level as 
alternatives to longer sentences, we need to have models that 
work.
    Ms. Swern. Well we do study our treatment providers. More 
importantly, we work with them. They are not criminal justice 
experts. They do not really understand the criminal justice 
consequences of certain things.
    I will give an example. Say a person has committed domestic 
violence in their past and they are there for treatment and the 
clinicians are working with them, but they are calling the 
victim in violation of an order of protection. That violates 
the mandate of the court.
    A service provider only worries about whether or not they 
are taking drugs or not. They are not worrying about the 
criminal justice implications.
    It is for us to educate and work with them, and then they 
usually rise to the occasion. They are really good at their 
clinical stuff. They may not be great at the criminal justice 
stuff. And that is the collaboration piece that I talked about 
that your Drug Courts and all the people in your State do so 
well.
    I think that treatment providers can be brought up to the 
level that criminal justice experts want them to be with close 
cooperation.
    Senator Klobuchar. All right. Thank you. I am out of time, 
but I just wanted to thank you as well, Ms. Fernandes, for 
sharing your story. I know how hard that can be----
    Ms. Fernandes. Thank you.
    Senator Klobuchar [continuing.] And it makes a big 
difference when you hear actual stories like yours.
    Ms. Fernandes. Thank you.
    Senator Webb. Thank you, Senator Klobuchar.
    Congressman Scott.
    Representative Scott. Thank you, Mr. Chairman, and thank 
you for holding this hearing. We have gotten a lot of real good 
information.
    Ms. Swern, you indicated that you discuss diversion with 
victims. Is part of that discussion the fact that the victim is 
more likely to get restitution if the person is diverted than 
sent to jail?
    Ms. Swern. When it is appropriate for the case, in a 
larceny case, absolutely we discuss that. But we are very 
careful about that, because as was touched upon here in your 
remarks, the collateral consequences of conviction--people who 
have a felony record sometimes have impediments to employment.
    And we certainly would not want to create a great 
impediment to employment by requiring a person to pay money 
that they could not afford.
    So what we have done in experimental cases is take a 
fraction of the amount of money that they are making--maybe not 
full restitution to the victim--but a certain amount to enable 
the victim to be compensated, but also for the defendant to be 
able to truly get on their feet so they do not reoffend.
    Our number one goal is that they do not reoffend.
    Representative Scott. Thank you.
    Mr. Hinchey mentioned the fact that most of the problem is 
on the demand side, that there is relatively less success on 
the supply side.
    Mr. Walsh, you indicated that for dealers enhanced 
sentencing might have an impact, but it occurred to me that if 
you look at the difference between powder and crack cocaine, 
powder you can distribute and get probation; with the same 
amount of crack you can get 5 years mandatory minimum.
    Do dealers make the rational choice to deal powder rather 
than crack because of the relatively draconian sentence? Or do 
they deal with people want to buy?
    Mr. Walsh. If I did, I did not mean to imply that stiff 
sentencing is going to make a difference in availability. I 
think the record is on the contrary. Indeed, the studies that 
have been done--particularly on the mandatory minimums--have 
shown that higher sentences lead to higher costs because of 
longer time in prison without early release for relatively low-
level crimes, because most of the people who do get caught up 
are not the people who can plead down.
    So I think on the drug-control effectiveness issue, it is 
lacking greatly, enormously. And I think on the fairness and 
justice side, it is also very much lacking, because by and 
large, the people who are hit with those are people at the very 
low end. And the people with any information to give do not 
face those long, stiff sentences.
    So if I said anything to the contrary, I want to correct 
that.
    Representative Scott. Dr. Reuter.
    Dr. Reuter. Steve Levitt, the author of Freakonomics, is 
also co-author of probably the only serious study of the 
effects of intensive criminal enforcement on the price of 
drugs, in particular of cocaine.
    The paper on this topic suggests that a tripling of the 
number of people in prison between, I think 1986 and 1996, may 
have raised the price of cocaine by 5 to 15 percent, a fairly 
expensive way of accomplishing that. Moreover, I actually have 
technical reasons to think that it is an over-estimate of the 
effect.
    If you compare the price of crack and the price of powder 
cocaine, you would expect that the longer sentences would 
make--crack would be more expensive; after all, the crack 
dealers would have to be compensated for taking the risk of a 
longer sentence.
    The best paper I know on that by Jonathan Caulkins a few 
years ago found there was no difference in the price per pure 
milligram of cocaine in the two forms. So that again suggests 
that sentencing does not have the expected effect.
    Representative Scott. Thank you.
    And Ms. Swern, you indicated a $44 million generating--$44 
million economic benefit from your DTAP program. How much money 
did it cost you? What did you have to invest to generate that 
kind of positive result?
    Ms. Swern. Well basically the way we calculated it is 
mostly--it is the corrections' cost savings, and it is also the 
other savings that I referred to.
    The cost for a person going through DTAP is about $32,000 a 
year. The cost for that person to go to State prison is about 
$64,000. So it is double.
    Representative Scott. You reduced recidivism. So if the 
costs were the same, you would still be saving money. But it is 
even more expensive to have the incarceration strategy. I mean, 
you save money and reduce crime. It is kind of hard to believe 
that people would not be for that.
    Ms. Swern. I agree.
    Representative Scott. Thank you.
    And, Mr. Walsh, you indicated harm reduction. What does 
that mean? The Harm Reduction Strategy?
    Mr. Walsh. Harm Reduction starts with what it means as a 
framework for viewing drug control and the drug problem. It 
means that you acknowledge and you try to reduce and minimize 
the harms that attend to the production, trafficking, and use 
of illicit drugs, which are all real and severe; but at the 
same time, keep in mind and try to minimize the costs and harms 
caused by policies meant to control illicit drugs.
    A case in point is over-use, over-reliance on 
incarceration. We have used incarceration far beyond the point 
of diminishing returns in terms of getting a handle on the drug 
markets. Incarceration, by detaining people, just opens up new 
entry, including for younger people.
    So the costs of incarceration as a central approach are 
part of the harm of policy, and that is what we want to 
minimize; at the same time, we do not forget about the harms 
that drug use itself causes.
    Representative Scott. Thank you.
    Dr. Reuter. Harm reduction is a red flag in international 
discussions about drug policy. It is the way that many 
Europeans think about drug policy, they are less concerned 
about the number of people who use drugs and more concerned 
about the total adverse consequences of their drug use.
    So they might even be willing to tradeoff a little increase 
in drug use if you see a reduction in the total adverse 
consequences that come from that use.
    Needle exchanges are the primary battleground for harm 
reduction programs, though there are other interventions 
related to reducing the adverse consequences of injecting drug 
use. However the notion of harm reduction is a much broader one 
as John suggested, and you can apply it to thinking about 
incarceration.
    Let's for the moment accept what I think is not true, which 
is that higher incarceration actually raises drug prices and 
reduces drug use. You might still say that the small decline in 
drug use achieved was not worth the human suffering that you 
caused by the increased incarceration, not just to the people 
who were incarcerated, but also to their families and 
communities.
    Senator Webb. Excuse me, Dr. Reuter, I note that the House 
has called a vote, and I would yield to Congressman Hinchey if 
he had anything else he would like to say, if you are going to 
make the vote?
    Representative Hinchey. I do not think we have time, but 
thank you very much, Mr. Chairman.
    Senator Webb. OK. Well if so----
    Representative Hinchey. I would like, once again, to 
express my appreciation to you. It has been a very interesting 
hearing. This is a very, very important subject and it is one 
that is costing us a lot in this country, not just in dollars--
although it is costing us a lot that way--it is costing us a 
lot socially as well.
    It is something that we just have not had the ability to 
deal with in one way or another. I think that all of the 
testimony that you have given and the response to the questions 
that have been asked have been very positive, and I think very 
very helpful.
    I particularly want to thank you for that, and I want to 
thank you, Ms. Fernandes, for the experience that you had and 
in conveying that very positive experience to us and the way in 
which it has made a difference in your life and consequently 
can make a big difference on a whole lot of other people's 
lives as well.
    Ms. Fernandes. Thank you.
    Senator Webb. We appreciate very much Congressman Scott and 
Congressman Hinchey for making the trek over to this side, and 
for being with us today.
    I have another question I am going to ask before we close 
the hearing, but Congressman Scott, did you want to say 
something?
    Representative Scott. Thank you for your leadership on this 
issue. Thank you, very much.
    Senator Webb. Good to be with both of you.
    I would like to pursue one other question here while we 
have the panel. Justice statistics show that of all drug 
arrests in 2005, 40.6 percent were for marijuana offenses. I am 
curious about what this panel thinks about that; first of all, 
in terms of the amount of energy and the legal apparatus that 
is going toward marijuana, how it impacts the ability--it may 
impact positively, it may impact negatively, but I am curious 
about your perceptions on how this impacts the ability to get 
our arms around the other areas that we are trying to deal 
with.
    Dr. Reuter. I have done some work on this, particularly in 
the State of Maryland where I tried to see what happened to 
people who were arrested for simple marijuana possession, which 
is the vast majority of those marijuana arrests. They are 
arrested not for dealing, but for simple possession.
    What is really interesting is that in Maryland, which is 
not a decriminalized State so that possession is subject to 
criminal penalties, essentially nobody was sentenced to jail as 
a result of marijuana possession arrests.
    However, about one-third of those who were arrested spent 
time in jail pre-trial. If I remember correctly, about one-
sixth spent more than five nights in jail.
    So there is sort of an odd way in which there is this 
random punishment that is handed out really outside of the 
criminal justice system--certainly outside of the court system.
    There is this very large number of arrests. I think that in 
fairness----
    Senator Webb. Part of it, if I may----
    Dr. Reuter. Yes.
    Senator Webb. Part of it is the arrests. Part of it is that 
a significant percentage of people who are incarcerated are 
incarcerated for possession of one type of drug or another, 
rather than sales, and part of it is the energy that is 
expended in the criminal justice system that ends up resulting 
in marijuana arrests. This is what I am asking you to react to.
    Dr. Reuter. OK. I mean, the term ``arrest'' is a pretty 
broad one. In California, which is a decrim State, there are 
very large numbers of arrests. It is not clear how much of that 
is taking people down to the station and actually booking them, 
as opposed to issuing something not much more than a----
    Senator Webb. So would you say this is benign, or not 
benign? Does it impact the other side?
    Dr. Reuter. ``Benign'' is too strong, but it is not as bad 
as it looks. Just let me say something about the incarceration 
for possession.
    There are a large number, something like a third of those 
serving time in State prison, who are serving time on a 
possession conviction. But if you do a survey of the inmates 
themselves, most of those report that in fact they were 
involved in the distribution, and it is clear that this was in 
fact a plea and they simply pled to a lower possession charge 
and took some prison time.
    Senator Webb. But still nonetheless nonviolent?
    Dr. Reuter. A large number of them nonviolent, that's 
correct.
    Senator Webb. OK. Thank you.
    Mr. Walsh.
    Mr. Walsh. I think your question also goes to setting 
priorities. I think one of the principles to carry forward as 
we rethink and try to improve drug policies is discriminating 
among types of drugs, illicit drugs, and which do the most 
harm, and which are the most harmful overall, and which 
therefore deserve the most emphasis.
    Also, if you look at the sheer number of users, at least by 
the household surveys and the school surveys, marijuana is far 
and away the most widely used illicit drug.
    What kind of dent are you going to make even if you have 
many, many more arrests for marijuana possession is not very 
clear. So I would suggest that in considering what are the most 
effective types of policy, we also have to consider differences 
among drugs and not suggest that, while they are all illicit, 
therefore they are all equally harmful in the same ways.
    Senator Webb. Ms. Swern.
    Ms. Swern. Our experience in Brooklyn is that simple 
possession of marijuana or of a small amount of sale of 
marijuana is generally not--nobody goes to jail, really, for 
that.
    The other things, though, about marijuana, the two 
interesting things that we did see is that children who were 
arrested--``children,'' people under say the ages of 22 that 
are arrested for other kinds of drugs, sale of cocaine, sale of 
heroin--frequently are heavy marijuana users. Every day they 
use marijuana. Every day they drink.
    And those people we will divert to treatment, even though 
we wouldn't if the person was 35 or 40 years old, because 
treatment does seem to work for that population somewhat. The 
structure of treatment, the principles of treatment, does seem 
to work. And frequently they are selling other drugs, but they 
are using marijuana every day.
    And finally I will say that when we look at spates of 
violence in public housing and other places in Brooklyn, we 
look to the causes of it. You know, is it a social club? Is it 
localized?
    And we have seen recently that spates of violence are 
around the marijuana trafficking areas. So that we do--we do 
not want to divorce ourselves with the kinds of drug that we 
are talking about, and the kind of violence that it might bring 
because it is so lucrative and because there are turf wars and 
because there are other things, and criminal activity----
    Senator Webb. You would attribute that violence to 
competition in the trafficking of marijuana? Is that correct?
    Ms. Swern. Yes.
    Senator Webb. My question is basically the energy that is 
expended in arresting people for possession of marijuana, as 
opposed to drug trafficking, writ large.
    Ms. Swern. Well I can only say what we do with the cases 
when they bring them to us.
    Senator Webb. Ms. Fernandes, you may have a unique 
perspective on this. I would be happy to hear it.
    Ms. Fernandes. In dealing with ComALERT, I think it is 
because whether the age range, they engage with marijuana at a 
early age, and I think it's not such a big deal to them to be 
arrested for a possession charge, so maybe that's why there 
have been that many arrests that was just stated.
    And also there's a lot of adolescents that are now engaged 
at a very, very early age with the use of marijuana in 
Brooklyn.
    Senator Webb. Well I thank you. I thank all of you for your 
answers to those questions.
    Senator Schumer was planning to be here, but apparently he 
has not been able to make it. The hearing record will remain 
open for Members of the Committee who wish to submit a 
statement for the record. I know Senator Schumer had said he 
wanted to do so, Vice Chair Mahoney, Senator Brownback, all 
would like to have the opportunity to comment.
    I thank all of you for your participation today, and we 
will continue this discussion.
    The hearing is now closed. Thank you.
    [Whereupon, at 11:37 a.m., Thursday, June 19, 2008, the 
hearing was adjourned.]

                       Submissions for the Record

                 Prepared Statement of Senator Jim Webb

    I would like to thank Chairman Schumer for agreeing to hold this 
hearing and allowing me the opportunity to chair it. I would also like 
to thank our witnesses for appearing today. Following my remarks, I 
would encourage members to make opening statements.
    This hearing today follows a Joint Economic Committee hearing I 
chaired last fall regarding incarceration. The central role of drug 
policy in filling our nation's prisons makes clear that our approach to 
curbing illegal drug use is broken.
    It is a poignant day in history to hold this hearing. On this day 
in 1986, University of Maryland college basketball star Len Bias died 
from a cocaine overdose. The enormous media coverage surrounding his 
death firmly placed the issue of drugs at the center of our political 
stage. The Anti-Drug Abuse Act, which established mandatory minimum 
sentences for drug offenses, was signed only 4 months later.
    Today is also Juneteenth, marking the date in 1865 when slaves in 
Texas were told of the abolition of slavery. It is painful to note that 
as people gather today to celebrate the end of slavery, Human Rights 
Watch reports that while ``ostensibly color-blind, the U.S. drug war 
has been and continues to be waged overwhelmingly against black 
Americans.''
    Understanding how illegal drugs affect our society involves a 
complex matrix of issues. We start with the fact that the illegal drug 
market is enormous and lucrative. The United Nations Office on Drugs 
and Crime estimates that the United States, Canada, and Mexico account 
for 44 percent of global retail drug sales, totaling tens of billions 
of dollars. The total economic costs of all the factors associated with 
drug abuse in the United States have been estimated at $182 billion per 
year. To offer a context for understanding the value of the drug trade, 
global exports of wine and beer are equivalent to only one-quarter of 
illegal drug flows.
    To meet our enormously profitable and insatiable demand for drugs, 
there are innumerable ready suppliers in this country and outside our 
borders. As the Economist reported, marijuana is California's most 
valuable cash crop, with four-fifths of the outdoor plantations in the 
state run by Mexican gangs. Strategy Forecasting, Inc. estimates that 
``at least half of the $65 billion worth of illegal narcotics purchased 
in the U.S. each year comes through Mexico.''
    Efforts to halt the flow of drugs into the country, however, have 
done little to limit supplies. Instead, we are witnessing a war on our 
border. Since President Calderon launched an offensive against drug 
gangs and cartels over a year ago, about 4,100 people have died, 
including 450 Mexican police officers and soldiers. President Calderon 
has declared that his government sees it as a war, and the U.S. State 
Department issued a warning this May that the engagements in Mexican 
streets are ``equivalent to military small-unit combat.''
    While spending enormous amounts of money to intercept drug 
shipments at the border and inside the country, supplies remain 
consistent. As this chart shows, 86 percent of high school students 
report that it is ``very easy'' or ``fairly easy'' to obtain marijuana. 
47 percent report the same for cocaine, 39 percent for crack, and 27 
percent for heroin. Success in curbing drug imports would be 
accompanied by an increase in price. Cocaine prices, however, have 
fallen by approximately 80 percent since the 1980s. An indication that 
there may be an increase in price in 2007 still places prices well 
below the levels of the 1990s.
    Simultaneously, efforts to curb illegal drug use in the United 
States have relied heavily on enforcement. The number of drug arrests 
tells the story of the growth in the prison population. As this chart 
shows, the number of persons in custody on drug charges increased 
thirteen times in the past 25 years. Despite the number of people we 
have arrested, the illegal drug industry and the flow of drugs to our 
citizens remain undiminished.
    The arrest numbers also tell another story. Convictions and 
collateral punishments are devastating our minority communities. When 
it comes to incarceration for drug offenses, the racial disparities are 
alarming. Although African Americans constitute 14 percent of regular 
drug users, they are 37 percent of those arrested for drug offenses, 
and 56 percent of persons in state prisons for drug crimes.
    The last piece of the drug puzzle is the need to clean up drug 
dependent Americans inside our prisons and our homes. Alternatives to 
enforcement have shown that that a variety of approaches can 
successfully reduce incarceration, improve public safety, and produce 
social benefits in excess of their costs. Diversion programs and drug 
courts are two of the promising examples that offer better outcomes.
    Our current combination of enforcement, diversion, interdiction, 
treatment, and prevention is not working the way we need it to. And, 
despite overwhelming facts--the ease with which drugs can be obtained, 
the price of drugs, the number of people in prison, the violence at the 
border--there has been little effort to take a comprehensive look at 
the relationship between the- many interlocking pieces of drug policy.
    We need to rethink our responses to the health effects, economic 
and social impact, violence, and crime associated with illegal drug 
use. We also need to reconsider our approach to the supply of and 
demand for drugs. The central challenge for our witnesses is to help 
us, and all Americans, to understand the full dynamics of this problem, 
and to assist us in pointing the way toward effective solutions. I 
welcome your thoughts today.

[GRAPHIC] [TIFF OMITTED] T4772.001

[GRAPHIC] [TIFF OMITTED] T4772.002

 Prepared Statement of Dr. Peter Reuter,* School of Public Policy and 
           Department of Criminology, University of Maryland
                                summary
    America's drug problem seems to be declining and is certainly less 
prominent in the public eye than it was twenty years ago. The declines 
are probably mostly the natural working out of old epidemics rather 
than the result of tough enforcement. Nonetheless, cocaine, heroin and 
methamphetamine continue to cause great harm to the nation, 
particularly to vulnerable minority communities in the major cities. 
The United States has a larger drug problem than any other western 
nation, whether measured in terms of the prevalence of problematic drug 
use or the adverse consequences of drugs, including crime and disease 
(particularly HIV).
---------------------------------------------------------------------------
    * A fully documented version of this testimony will be posted on my 
website shortly: http://www.puaf.umd.edu/faculty/reuter/
working%2OPapers/Publications.htm
    Jopnathan Caulkins and Harold Pollack provided valuable comments on 
an earlier draft. The opinions expressed here are solely my 
responsibility.
---------------------------------------------------------------------------
    U.S. drug policy is comprehensive but unbalanced. Compared to other 
wealthy nations it spends more money on drug control and a large share 
of that, perhaps as much as 75 percent, goes toward enforcement, 
particularly arresting, prosecuting and imprisoning low level drug 
dealers. About 500,000 persons are locked up for drug offenses on any 1 
day. Treatment is provided to a modest fraction of those who need it, 
the quality of services is low and the mechanisms for linking treatment 
and enforcement remain weak. Policy measures, whether they involve 
prevention, treatment or enforcement have met with little success. 
Prices have fallen and the drugs remain as available as ever.
    The forces for major change in drug policy seem weak. Moreover, 
even if Congress did want to make major revisions, it would have 
difficulty finding credible evidence to guide it. Not only is there 
weak monitoring of the nation's drug problems, there is also minimal 
evaluation of the enforcement programs that dominate expenditures. 
Without it policy debates will be little more than the exchange of 
impressions.

                         AMERICA'S DRUG PROBLEM

    Drugs have been part of the landscape of U.S. social problems for 
at least forty years, from the time of the heroin epidemic of the late 
1960s. The principal costs have been the high crime rates and the 
neighborhood consequences of that, particularly in low income minority, 
urban communities; the incarceration of large numbers of young males, 
particularly in those same neighborhoods; and HIV associated with 
injecting drug use, primarily heroin.
Use
    Since 1965, the U.S. has experienced four major epidemics of drugs 
other than marijuana, in which there have been abrupt increases in new 
use followed later by sharp declines in new use. After each epidemic 
there has been a relatively large, but slowly declining, population of 
dependent users. Each drug has had a distinctive social, geographic and 
ethnic pattern and each has been strongly associated with crime.
    Heroin. The heroin epidemic's surge in initiation began around 1967 
and was over by 1974, in the sense that few new addicts started each 
year after that. The problem was concentrated in a few cities and 
particularly among African-American and Hispanic males. Many heroin 
addicts have survived for over thirty years with recurring periods of 
addiction, treatment, imprisonment and occasional abstinence.
    Powder cocaine Initiation in this epidemic peaked in the late 1970s 
and extended over perhaps a decade. The drug was used by a much broader 
population, in terms of income, ethnicity and education; it was also 
less concentrated among males.
    Crack cocaine The epidemic began in Los Angeles and New York around 
1982 and spread to other cities over the next 5 years. By 1988 rates of 
new use had declined everywhere. In each city the surge in initiation 
was brief, lasting about 2 years, and was concentrated among young 
people in poor minority communities.
    Methamphetamine By the early 1980s a small number of cities (most 
notably San Diego) on the West Coast had substantial methamphetamine 
dependent communities, primarily in working class neighborhoods, both 
Hispanic and white. Ten years later the drug spread eastwards to mid-
America and it was the first in which there were substantial problems 
in rural communities. The spread is spotty, penetrating most deeply 
where crack was least common; it is widely prevalent in Houston and 
relatively rare in Dallas, as revealed by drug testing among arrestees 
in the early part of this decade. As of 2008 methamphetamine remains 
almost unknown in some major east coast cities such as New York and 
Washington. Though the number of users dependent on the drug may still 
be rising, use in the general population is already well below its late 
1990s peak.
    Marijuana is by far the most widely used drug in the population. 
About half of every birth cohort since 1960 has tried the drug by age 
21. Since the mid-1970s there has been considerable variation in how 
many teenagers use it. For example, around 1980 about one in four 18-24 
year olds reported in a survey that they had used marijuana in the 
previous thirty days. The figure fell to one in eight 10 years later 
and since then has risen back to one in six. However past-year 
marijuana use in the population 12 and over has hardly changed at all 
since 1988.
    In 2000 the Federal Government estimated that there were about 1 
million chronic heroin users, 2.7 million chronic cocaine users and 
600,000 chronic methamphetamine users. Much larger numbers, perhaps as 
many as 5 million, were dependent marijuana users, but this was 
associated with much more modest problems, both for the users (on 
average) and on communities.
Drug-related Problems
    The most conspicuous consequence of drug use in the U.S. has been 
the crime associated both with its marketing and with the need to 
obtain money to purchase the substances, which are very expensive. A 
cocaine or heroin habit in the mid-1990s cost about $15,000 per annum, 
far more than an alcoholic had to spend for his source of intoxication. 
Given that regular use of cocaine or heroin made employment difficult, 
it was hardly surprising that crime was a principal source of earnings 
to pay for the drugs. Of those arrested in American cities early in 
this decade, a large fraction were regular users of expensive drugs, 
though the drugs varied a great deal by city. See Table 1

        Table 1 Percentage of Adult Male Arrestees Testing Positive for Drugs in Five Major Cities, 2002
----------------------------------------------------------------------------------------------------------------
                                                         Any
                     Primary City                       NIDA-5   Marijuana   Cocaine/   Opiates  Methamphetamine
                                                        Drug*                 Crack
----------------------------------------------------------------------------------------------------------------
Chicago, IL..........................................    85.2%       49.4%      47.9%     26.0%           0.3%
Dallas, TX...........................................    58.0%       35.3%      30.7%      6.1%           4.0%
Los Angeles, CA......................................    62.3%       36.4%      32.1%      5.8%          14.8%
New York, NY.........................................    81.0%       44.3%      49.0%     15.0%           0.5%
Phoenix, AZ..........................................    71.1%       41.5%      27.1%      5.0%          31.2%
----------------------------------------------------------------------------------------------------------------
Median (36 cities)...................................    63.9%       41.5%      30.4%      5.9%           5.3%
----------------------------------------------------------------------------------------------------------------
* The NIDA-5 drugs are cocaine, opiates, marijuana, methamphetamine, and PCP.

    In the early stages of the crack epidemic there was enormous 
violence associated with that market. As the users and sellers of crack 
aged, that violence fell sharply. Evidence for the aging of the crack 
using population can be found in data on treatment admissions. Whereas 
in 1992 less than 10 percent of those seeking treatment with smoked 
cocaine as their principal problem were over 45 years old, in 2005, 
that figure had risen to about 40 percent.
    Injecting drug use has been a major vector for the spread of HIV, 
accounting for about one third of the deaths that have occurred from 
that disease, about 200,000 by 2007. Overdose deaths amount to more 
than 10,000 per annum; this number measures only those who die of acute 
drug-related causes, not those whose death might result from chronic 
effects, such as liver failure due to Hepatitis B. It also does not 
include homicides that might be drug-related; since there were about 
15,000 homicides each year in the early part of this decade, it is 
plausible that a few thousand were related directly to drug selling and 
more indirectly via selling's effect on gun ownership among criminally 
inclined youth.
    There are three important effects that are subtler and even harder 
to measure. Many children suffer abuse or neglect because of their 
parents' addiction and/or absence because of drug-related 
incarceration. Inner city neighborhoods have become crime ridden, 
disorderly and unsightly as a consequence of open-air drug sales. This 
has immiserated the lives of the residents and driven out investment. 
Similarly, the possibility of earning large sums of money as a 
successful drug dealer may have led many youth in these same 
communities to abandon education early and enter the drug trade, even 
though most of them will earn less than minimum wages during the first 
few years of their career and have a high risk of being imprisoned. The 
best estimate of total revenues from drug selling, done in 2000, was 
that it generated about $60 billion, about 60 percent from cocaine 
sales. Though the great fortunes are made high up the distribution 
chain, most of the money goes to those near the bottom, reflecting the 
very pyramided nature of drug distribution; retailers are at least one 
hundred times more numerous than high level dealers.
Comparisons with other western nations
    Comparisons between the drug problems of the U.S. and other 
similarly rich nations is complicated by differences in how the data 
are collected and analyzed. For example, figures on death rates 
associated with drug use in other nations may use the term ``drug-
related'' more narrowly (France) or more broadly (Germany) than does 
the U.S. The U.S. household surveys, conducted face-to-face rather than 
through telephone, are likely to generate reports of use from a higher 
percentage of users. Thus the Figures in this section should be treated 
as indicative rather than precise.
    The United States, shows a very high prevalence of cannabis use but 
not more so than some other nations (Figure 1). It has a much higher 
rate of dependence on expensive illicit drugs, captured below in the 
measure ``problematic drug use'' \1\ (Figure 2). There are other 
countries that have heroin and marijuana prevalence rates comparable to 
the U.S. but none that then adds such a large problem with cocaine and 
stimulants. Nor does any other Western country experience such a 
variety and severity of drug-related problems. Only data on drug-
related deaths can be presented in a roughly systematic way (Figure 3) 
but reports of, for example, violence in drug markets, are 
exceptionally high in the U.S.
---------------------------------------------------------------------------
    \1\ For the United States I used estimates of the number of chronic 
users of cocaine, heroin, and methamphetamine, with an adjustment for 
overlap among the populations. The drug-specific estimates were taken 
from What America's Users Spend on Illicit Drugs 1988-2000 (ONDCP, 
2001).
---------------------------------------------------------------------------
    This is not to imply that the U.S. problems are worse because of 
policy; indeed I believe there are much more fundamental social 
cultural and economic influences that account for the differences. But 
these data do make it hard to argue that U.S. drug policy has been 
successful.

[GRAPHIC] [TIFF OMITTED] T4772.003


[GRAPHIC] [TIFF OMITTED] T4772.004

[GRAPHIC] [TIFF OMITTED] T4772.005

                          THE POLICY RESPONSE

    Though President Richard Nixon was the first president to declare a 
``war on drugs'' in the 1970s, the Federal Government, under presidents 
Nixon, Ford and Carter, gave considerable emphasis to treatment, 
particularly to provision of methadone maintenance for heroin addicts, 
as a way of combating crime problems. President Carter was notably more 
liberal on drug policy than any later president, even expressing a view 
that the punishment for marijuana possession should be no more severe 
than the consequences of the drug itself.
    Since 1981, when Ronald Reagan became president, the response to 
drug problems has consistently emphasized enforcement, particularly 
against sellers of cocaine. This emphasis is bipartisan: the Clinton 
administration was just as tough on drugs as the administrations of 
Presidents George H.W. Bush or George W. Bush.
    The Federal Government has allocated about two thirds of its drug 
control funds to enforcement since 1985; see Figure 4. However this is 
not a full description of the national drug control budget, since it 
represents only about half of all drug control expenditures. State and 
local governments also spend large amounts, perhaps as much as the 
Federal Government, and their expenditures are even more tilted toward 
enforcement.

[GRAPHIC] [TIFF OMITTED] T4772.006


    As a result of changes in Federal budget procedures, it is 
impossible to show post 2002 changes consistently but there is good 
reason to believe that the budget has continued to grow and to show 
increased emphasis on enforcement. It is likely that total expenditures 
for drug control, at all levels of government, totaled close to $40 
billion in 2007; 70-75 percent of that went to enforcement. 
Incarcerating 500,000 inmates for drug offenses alone would cost about 
$12-15 billion.
    Enforcement The most striking consequence of this emphasis on 
enforcement is the huge number of individuals being incarcerated for 
drug offenses. Whereas in 1980 fewer than 50,000 individuals were 
incarcerated, that figure had risen to 500,000 by 2007. The estimated 
half million (which includes those in local jails as well as Federal 
and state prisons) consists only of those who have been convicted of 
drug selling or possession, not those whose property or violent crime 
may have been related to their drug dependence. What is particularly 
astonishing is that the number has kept on rising even though there is 
good reason to believe that the scale of drug dealing has been 
declining modestly for the last fifteen years. Though many are formally 
in jail or prison for drug possession offenses, most of those are in 
fact dealers who were convicted of possession with intent to distribute 
or who pled guilty to possession charges in order to avoid a longer 
sentence.
    A major concern has been the racial and ethnic composition of the 
incarcerated drug dealer population. The probability of going to state 
prison for a drug offense is about 14 times higher for an African-
American male than for a white non-Hispanic male. The ratio for 
Hispanic males is also high. Some of this reflects the greater lengths 
of statutory sentences for crack cocaine vs powder cocaine; crack 
cocaine offenses are much more likely to involve black offenders. The 
growth in the number of prisoners serving time for drug offenses may 
reflect the same aging of the user and seller populations mentioned 
earlier. Each time the same offender comes back into court he has 
accumulated a longer criminal history and is likely to receive a more 
serious sanction.
    In theory tough enforcement should lead to higher prices. As show 
in Figure 5 that has not happened. Prices for cocaine and heroin have 
fallen substantially over a long period of time; as compared to the 
early 1980s prices have fallen by about 80 percent. There is some 
indication of a price increase in 2007 for cocaine but even that leaves 
the price well below its 1990s levels. Moreover the price increase 
might well be short-lived, probably being related to the current 
conflict around drug markets in Mexico, just as there was a price spike 
when the Colombian government tackled the Medellin cartel in 1989-1990. 
Figure 2 makes the point about the failure by contrasting the decline 
in prices with the rise in drug prisoners.

[GRAPHIC] [TIFF OMITTED] T4772.007


    Evidence from Monitoring the Future, the annual survey of high 
school students, shows little change in the perceived availability of 
cocaine or marijuana over the period since 1980. For example, in 1991 
51 percent of high school seniors reported that cocaine was available 
or readily available. By 2003 that figure had only fallen to 43 
percent.
    Treatment Each year about 1 million persons are treated for 
substance abuse (not including alcohol alone). Large as that number 
seems, it is small in comparison with estimates of the total number of 
persons in need of treatment, particularly when one takes account of 
the growing number of marijuana admissions that are probably seeking 
help with a legal rather than a health problem.\2\ Not including those 
in prison or jail, there may be as many as 4 million persons who have 
abuse problems with cocaine, heroin and methamphetamine. Need for 
treatment rarely leads an addict to seek treatment; pressure from 
family, friends, employers or the criminal justice system is frequently 
required to get the addict into treatment. So it might not just be lack 
of expenditures that lead to a large ``treatment gap''. However the low 
share of addicts in treatment in the U.S. contrasts with other rich 
Western nations. For example in the Netherlands, Switzerland the United 
Kingdom, about half of those with heroin problems are in treatment 
programs; in the U.S. the fraction may be as little as one sixth.
---------------------------------------------------------------------------
    \2\ Marijuana dependence is not rare and is treatable. However a 
very high share of those entering treatment programs with marijuana as 
the primary drug of abuse do so as the result of referrals from the 
criminal justice system. Given the process by which marijuana 
possession arrests are generated, this suggests that many of those 
admissions are motivated by the desire for a reduced penalty from the 
court rather than help in dealing with marijuana abuse or dependence.
---------------------------------------------------------------------------
    Treatment is not only inadequate in terms of the number of 
available slots, it is also of low average quality. Drug treatment, 
particularly the provision of methadone maintenance, is separated from 
the mainstream of health care. Wages are very low, many of the workers 
are not well trained and the turn-over of the workforce is high. 
Despite this, there is abundant evidence that treatment, even not very 
good treatment, is both effective and cost-effective. Over 80 percent 
of those who enter treatment for the first time will either drop out or 
relapse, so that treatment is itself a career, like drug use. 
Nonetheless, the reductions in drug use generate large declines in 
crime and various health risk behaviors; these in turn yield large 
benefits both to the user and to society.
    Prevention There is universal enthusiasm for prevention programs in 
concept. By international standards the U.S. spends large amounts on 
prevention per capita and as a share of the drug control budget. 
Unfortunately much of that money is wasted on ineffective programs. 
Partly that is the result of a deeply flawed disbursement mechanism, 
the Safe and Drug Free Schools Act, which amounts to little more than 
revenue sharing under the rubric of supporting prevention activities. 
The Bush administration has tried to cut funding but Congress has 
resisted restrictions on such a politically attractive program.
    On the other hand, in recent years the Office of National Drug 
Control Policy has funded a mass media campaign that repeated 
evaluations have found to have no effect on youthful drug use. The most 
popular program in schools, Drug Abuse Resistance Education (DARE) has 
been evaluated a number of times and found ineffective; in face of 
negative findings the DARE program has agreed to redesign its efforts, 
though still using police officers as the messengers. Other prevention 
expenditures have gone to programs that have no plausible basis for 
belief they might make a difference and the opportunity cost of 
diverting classroom time from other subjects is often overlooked.

                         INTERNATIONAL PROGRAMS

    Expenditures on source country programs (eradication, alternative 
development, police training, equipment etc.) constitute a tiny share 
of U.S. drug control expenditures. Even with Plan Colombia at its 
height, the U.S. was spending no more than $1.5 billion on these 
programs, less than 10 percent of Federal drug control expenditures and 
less than 5 percent of total governmental drug control expenditures. 
The vast majority of that money was spent in the Andean region. Though 
Afghanistan dominates world heroin production, the United States 
imports most of its heroin from Colombia and Mexico. Indeed, these two 
countries account for the vast majority of the U.S. imports of all 
illicit drugs, with Mexico serving as the transit point for most 
cocaine and also producing much of the imported marijuana and 
methamphetamine. The Bush Administration has pushed for aggressive 
eradication in Afghanstan but with little success and probably has not 
pushed very hard given the political risks that such a program would 
bring to the already fragile Karzai government.
    Interdiction programs, which aim to seize drugs and couriers on 
their way into the United States, account for more money, roughly $3 
billion annually. Though most interdiction money is spent inside the 
U.S. waters, a substantial fraction does go to maintaining ships and 
planes in the Caribbean and Central American waters, so it has an 
international component.
    There is good reason to doubt the effectiveness of moneys spent 
against the growers of coca leaf, the source country refiners and even 
to a lesser extent the smugglers. The basic argument is reflected by 
the numbers in Table 2. These figures show that the vast majority of 
the retail price of cocaine is accounted for by transactions in the 
United States, almost all of that in the form of compensation to U.S. 
resident dealers for incurring the risks of being imprisoned or injured 
in the course of the business.

        Table 2.--Cocaine Prices Through the Distribution System
------------------------------------------------------------------------
                                                              Effective
              Product                     Market Level        Price/kg.
------------------------------------------------------------------------
Coca leaves........................  Farmgate/Colombia.....         $300
Coca base..........................  Farmgate/Colombia.....         $900
Cocaine hydrochloride..............  Export/Colombia.......       $1,500
Cocaine hydrochloride..............  Import/U.S............      $15,000
Cocaine (67% pure).................  Dealer/U.S............      $40,000
Cocaine (67% pure).................  Retail/U.S............     $150,000
------------------------------------------------------------------------

    The 1985 torture and murder of DEA agent Enrique Camarena in Mexico 
by drug traffickers tied to Mexican police agencies led to a strong 
reaction from Congress. Starting in 1986 the president was required 
each year to certify which nations were ``co-operating fully'' with the 
United States in suppressing drugs. This certification procedure became 
the source of great tension between the U.S. and various Latin American 
governments in the 1980s and 1990s, even though in all these years the 
U.S. has failed to certify the major producing and trafficking 
countries only a handful of times. Since President Bush in 2001 stated 
that ``the main reason why drugs are shipped through Mexico to the 
United States is because United States citizens use drugs'', there has 
been a great deal less interest in the certification process either in 
the U.S. or Latin America, though the annual International Narcotics 
Control Strategy Report continues to be published each year, with its 
assessment of each country's efforts at drug control.
    The United States government has also been very aggressive in its 
dealings with the United Nations, whether it be in the Commission on 
Narcotic Drugs (CND), International Narcotics Control Board (INCB) or 
United Nations Office on Drugs and Crime (UNODC). Harm reduction, the 
claim that it might be possible to reduce the total damage that 
prohibited drugs do to society by lowering the harmfulness of drug use, 
has become widely accepted in Europe (with Sweden as an important 
exception). However the U.S. has consistently pressed for stands by the 
U.N. agencies against harm reduction, in particular against the iconic 
program of syringe exchange, in face of a strong scientific consensus 
that such programs do no harm and sometimes do substantial good. The 
United States is committed to the view that only by reducing the number 
of users can drug problems be reduced and has been highly critical of 
other approaches, aided by a number of Asian and African countries that 
share these broad views. The INCB critique of drug consumption rooms, 
heroin maintenance programs and decriminalization of marijuana use are 
believed to reflect U.S. pressure.

                      POLITICS AND PUBLIC OPINION

    From about 1985 to 1995 drug policy was a major issue in U.S. 
politics, frequently mentioned in campaign speeches and the subject of 
a great deal of legislation. Since the late 1990s the topic has become 
invisible, except in the context of international affairs. For example, 
there has been almost no discussion of drug policy in any Presidential 
election post-1996. The most sophisticated recent study of public 
opinion on the matter done in 2001 showed a general pessimism both 
about the problem (seen to be getting worse) and about the 
effectiveness of different programs. Though support for tough 
sentencing, particularly of drug users, was not strong, there was also 
little support for any major changes in policy, even including the 
removal of criminal penalties for possession of small amounts of 
marijuana.
    There have been some modest changes that suggest a tiring with the 
``war on drugs'' approach. The most significant is the passage (by 
referendum) of Proposition 36 in California in 2000. Under Prop 36 
first or second time arrestees for drug possession were to be evaluated 
for treatment and were not at risk of being sent to jail or prison. 
This has been a major intervention affecting tens of thousands of drug 
users arrested each years. Drug courts, of which there were more than 
1,500 by 2007, also represent an effort to deal with drug offenders 
less harshly by offering treatment rather than incarceration, typically 
to non-violent offenders. However Arizona is the only other state to 
adopt a Prop 36 type regime and drug courts, though large in number, 
still account for less than 5 percent of drug-involved criminal 
offenders because they have tight restrictions on who is eligible for 
the program. An experienced heroin addict with numerous convictions for 
violent offenses would be excluded in most jurisdictions.

                         MAKING POLICY CHOICES

    The next 10 years of U.S. drug policy is likely to be very similar 
to the recent past. Even if the extent of drug dependence and related 
harms continues to moderate, there is little effective pressure for 
relaxation of the intense enforcement of the last two decades. Drug 
treatment may receive more support than in the past but that, of 
itself, will make only a moderate difference. Major legal change is 
extremely unlikely.
    For someone such as myself who has been involved in drug policy 
analysis for twenty 5 years what is most prominent about the field is 
simply the lack of any serious interest in analysis of programs and 
policies. Congress has not pressed any Administration to justify its 
policy choices in a systematic fashion but has been content to accept 
the standard rhetoric and argue about details.
    One sign of this neglect of the foundations of policy is the 
absence of Congressional reaction to the failure of ONDCP to continue 
to estimate the scale of the nation's drug problem. In the 1990s ONCP 
published a series of studies entitled What America's User Spend on 
Illicit Drugs carried out by its research contractor, Abt Associates. 
The most recent report covers the period 1988 to 2000. It presented for 
every year from 1988 onward, estimates of the number of frequent users 
of cocaine, heroin and methamphetamine, as well as the total quantity 
that they consumed and the money they spent acquiring those drugs, as 
well as marijuana. The findings, which received little attention at the 
time, were striking. For example, it showed a decline of nearly one 
third in the number of frequent users of both cocaine and heroin from 
1988 to 2000.
    In the 2005 National Drug Control Strategy, there was a brief 
reference to an updated report, probably taking the estimates through 
2003. That report has never been published, nor has any other updating 
appeared. It is hardly a secret that ONDCP has refused to publish the 
completed 2005 report, yet Congress has never, to my knowledge, 
publicly questioned ONDCP in its many appearances before various 
Committees.
    These figures are not of merely academic interest. The scale of the 
drug problem, as experienced in the cities of this country is more 
closely approximated by a measure of the size of drug revenues and 
estimates of the profits accruing to dealers than it is by the 
prevalence of marijuana use in the annual survey of high school 
students, which is the principal outcome measure used by ONDCP. For 
health purposes the quantity consumed and the number of chronic users 
are both important inputs; the number of chronic users is a rough 
measure of how many people are at risk of serious harms and the amount 
they consume is a further measure of the severity of their risks.
    As important as it is to ensure adequate measurement and monitoring 
of drug problems, even more emphasis has to be given to providing the 
analytic base for Congress and state legislatures to make their 
decisions about policies and programs. For example, do longer prison 
sentences for crack cocaine have any effect on the share of American 
cocaine consumption accounted for by crack? How much can increased 
funding for drug interdiction efforts by the Coast Guard and Customs 
Service reduce use of cocaine and heroin? How should treatment funding 
expansions balance access for criminal justice clients and improvements 
in treatment quality? For none of these questions is there a base of 
studies that would allow for more than an exchange of impressions among 
contesting groups.
    Consider the interdiction issue. The share of cocaine seized by 
interdiction agencies in the last decade has been high, perhaps as much 
as 40 percent. That good news is countered by the fact that, at least 
until 2007, a high seizure rate did not prevent the continued decline 
of cocaine prices and stable availability. My interpretation of this 
comes from a simple economic model in which there are two inherent 
limits to interdiction as a drug control program.
    (1) Seized cocaine is cheap to replace. The import price may be 
only 15 percent of retail price. If (as suggested by the 40 percent 
seizure rate) it is necessary to ship 1.6 kilograms from Colombia in 
order to sell 1 kilogram to U.S. users, and the retail price is 
$100,000, then the replacement cost of the seizures is only $9,000, 
less than 10 percent of total revenues. Raising the fraction seized 
from 40 percent to 50 percent, an impressive achievement, would add 
only about 3 percent to the retail price.
    (2) There are many routes and modalities available to cocaine 
smugglers. It is difficult to provide persistent and high levels of 
coverage against all of them simultaneously. Thus smugglers adapt and 
limit the effectiveness of increased interdiction against any specific 
mode or route.
    My interpretation seems a reasonable one but it is arguable. For 
example, the underlying model of price formation in drug markets can be 
contested. Perhaps mark-ups by successive sellers along the 
distribution chain are done on a proportional rather than an additive 
basis as my model assumes, consistent with economic research on legal 
markets. My long-term collaborator Jonathan Caulkins indeed proposed 
and provided a theoretical argument for just such a model in 1990. 
Efforts at empirical testing have been slight and the matter remains 
unresolved. There probably are no more than five papers that make any 
effort to test the propositions. To my knowledge no government grant 
has ever been given to explore this matter. Yet this analysis is 
central to any serious assessment of the drug interdiction program, 
roughly a $3 billion budget item. Would increasing the program by one 
third have a substantial effect on the price and availability of 
cocaine? There is no basis for answering that question beyond the kind 
of very primitive exercise that I have suggested.
    In 2001 the National Academy of Sciences published a report which 
reached the same pressimistic conclusion about the state of drug policy 
decisionmaking, namely that the data and research base was 
extraordinarily slight. In the 7 years since then nothing much has 
changed. Indeed, for a variety of reasons a number of major indicator 
systems have been eliminated or made less useful. For example, the 
Arrestee Drug Abuse Monitoring system, which provided invaluable data 
on drug use by arrestees, has been eliminated thus removing the basis 
for estimating the number of chronic users, has been eliminated. The 
survey consumed too large a share of the resources of the National 
Institute of Justice and nonone of the other agencies that benefit from 
these data was willing to provide financial support. Revisions in the 
Drug Abuse Warning Network have limited its ability to trace patterns 
of change nationally. The National Institute on Drug Abuse has begun to 
fund more research on drug markets and indirectly on enforcement but 
this is still a very modest effort and not driven by policy issues.
    Of course decisions have to be made in the next few years and they 
will be made with whatever information and analysis is available. As 
should be clear from my assessment above, my own view is that the 
United States imprisons more people for drug offenses than it ought, 
provides too little treatment services and fails to find sensible ways 
of linking criminal justice and treatment. I hope that Congress will 
undertake a more systematic approach to drug policy in the future and 
examine more than marginal changes.

                               __________
Prepared Statement of John M. Walsh, Senior Associate for the Andes and 
             Drug Policy Washington Office on Latin America
    Chairman Webb and Members of the Committee, I am honored to testify 
before you today about U.S. drug policy. My organization, the 
Washington Office on Latin America (WOLA), has for many years conducted 
research and advocacy in support of more humane and effective drug 
control policies. WOLA is a founding member of the International Drug 
Policy Consortium (IDPC), a global network of NGO's that promotes open, 
objective debate on drug policy and supports evidence-based approaches 
that reduce drug-related harm and respect human rights. Within a matter 
of months, a new U.S. Administration will be in place, and the United 
Nations will be issuing a new political declaration setting the course 
for global drug control efforts in the decade ahead. This is therefore 
an opportune moment to promote a serious debate about the direction of 
U.S. drug policy at home and overseas, and I appreciate your initiative 
in doing just that.
    Allow me to begin on a personal note. In what must be sheer 
coincidence, today's hearing occurs 22 years to the day after the 
cocaine overdose death of Len Bias, the University of Maryland 
basketball star. Bias's death came in the midst of the crack epidemic 
that was devastating so many urban minority communities, and was among 
the events that made drugs the American public's top concern and 
spurred Congress to pass the Anti-Drug Abuse Act of 1986. That law 
included the ``certification process,'' which was intended to compel 
closer drug control cooperation by other governments, threatening 
economic sanctions. Len Bias's passing hit close to home for me 
personally because he was my contemporary; I had just graduated from 
Georgetown University (at the time a basketball power itself) and had 
avidly followed his rise to stardom.
    But the manner of Bias's death was especially relevant to me in a 
more peculiar way: I had just begun a year-long Jesuit volunteer 
program in Peru, the country which at the time was the world's leading 
producer of coca leaves, the raw material for cocaine. As the ``drug 
war'' became headline news in the United States and the major Andean 
cocaine ``source'' countries, it became apparent to me early in my stay 
in Peru that an emphasis on forcibly eradicating coca bushes held 
little promise as a strategy to curb cocaine production and 
consumption. Without other alternatives in place to earn a living, 
farmers would replant coca sooner or later. Fast forward more than two 
decades, and that is precisely what has happened. Today, the Andean 
region is evidently growing as much coca and producing as much cocaine 
as ever, although Colombia has long since emerged as the top coca-
growing country (see figure below; 2007 estimates should be available 
later in June 2008).

[GRAPHIC] [TIFF OMITTED] T4772.008

* 1987-1991 totals include small estimates for Ecuador: 1987, 300 
hectares; 1988, 240; 1989, 150; 1990, 120; 1991, 40.

Note: For 2006, ONDCP reported only ranges for Bolivia or Peru. For 
Bolivia, the ranges reported for 2005 and 2006 were nearly identical, 
so this figure uses the same point estimate for 2006 as for 2005. For 
Peru, ONDCP reported a 17 percent increase for 2006 when compared to 
similar survey areas from 2005. The figure presented here takes a 
conservative approach, using an estimate for 2006 for Peru the 
represents only 10.5 percent increase over 2005.

Source: State Department and ONDCP

    But the situation is actually worse than the relatively stable 
aggregate numbers suggest: as coca cultivation and production have 
shifted within and across borders, the environmental damage and 
violence that accompany the illegal drug trade have also spread. Still, 
the State Department, in its annual International Narcotics Control 
Strategy Report, has insisted that, ``The cornerstone of U.S. supply 
reduction strategy remains source-zone eradication. We continue to 
strongly believe that drug crops are the weakest link in the drug 
production chain.''
    Those who support continued forced eradication efforts argue that 
production of illicit drugs would be even worse without the programs 
presently in place. But this assessment fails to account for the 
significant negative and counterproductive effects of forced crop 
eradication. The eradication of crops upon which farmers and their 
families depend pushes people deeper into poverty, and thereby 
reinforces their reliance on illicit crops. As the areas where these 
crops are grown are also the most marginalized, this also means that 
for many local farmers, their primary interaction with the state is via 
repressive anti-drug programs. Decades of forced eradication efforts in 
Latin America have left a trail of social conflict, political unrest, 
violence and human rights violations.

           U.S. DRUG POLICY ON AUTO PILOT, WITH MONEY TO BURN

    My point in reviewing the experience with forced eradication is 
that a stiff dose of historical perspective is in order as policymakers 
contemplate the scope of the drug trade today, and engage in a critical 
examination of how to improve U.S. drug policies.
    Current policies are not new, nor have they been resource-starved. 
At home and abroad, the enforcement-led approaches that dominate U.S. 
drug policy today took their shape by the mid- to late-1980s. Even as 
drugs receded as a top public concern, government spending at all 
levels continued apace, with the bulk of spending dedicated. to 
prosecuting and incarcerating drug offenders. The combination of 
increased prosecutions and escalating penalties made drugs the leading 
contributor to an unprecedented explosion in the number of Americans 
behind bars. By my conservative calculations, since 1981, Federal, 
state and local governments have spent at least $800 billion (adjusted 
for inflation) on drug control, including $600 billion on efforts 
typically classified as ``supply control'' (domestic enforcement, 
interdiction, and international programs). Come appropriations time, 
the winning formula for Federal anti-drug agencies has generally been a 
variant of ``We scored great successes against the drug traffickers 
last year--eradicating so many hectares of crops, seizing so many tons 
of drugs, arresting so many dealers--but the enemy remains formidable, 
so to sustain the progress we have made will require increased 
resources.'' More often than not, Congress has complied.
    Beyond direct government spending on drug control, illicit drugs 
and drug control policies generate considerable economic costs to the 
nation. My estimate of direct expenditures does not include these 
burdens, which include cost categories such as productivity losses due 
to drug-related premature death or to drug-related incarceration. The 
White House Office of National Drug Control Policy (ONDCP) last 
published estimates of this sort in 2004, showing the overall annual 
economic costs of illicit drugs growing every year from 1992 ($108 
billion) to 2002 ($181 billion). While the findings of such exercises 
are certainly subject to debate--given the many limitations of the 
underlying data and the numerous assumptions that have to be made--the 
wide range of sectors affected (heath care, crime and criminal justice, 
workplace productivity, etc.) suggests the large scale of the problem 
and the potential benefits of improving policies in ways that can 
reduce these steep social and economic costs.

                      LESSONS FROM THE SUPPLY SIDE

    Since the basic elements of current U.S. drug policy have been in 
place for at least two decades, and drug control agency budgets have 
generally grown rather than shrunk, it is fair to say that a track 
record has been established. Were these well-established policies to 
have succeeded, the successes should presumably have been evident by 
now. And were they to have failed, or at least fallen short of 
expectations, those failures should also be discernible by now. In 
either case, we should be able to draw some lessons, whether positive 
or negative.
    It should go without saying that more and better social science 
research on drug control strategies is desperately needed--especially 
regarding enforcement, which has received the lion's share of resources 
but has been the subject of negligible research and evaluation. Indeed, 
the next U.S. Administration and Congress can do much to set in motion 
a fruitful research. In the meantime, as preface to a look at the 
illegal drug trade today, especially with regard to the U.S.-Mexico 
border, I offer three fundamental points about the dynamics of the drug 
trade and the limits of supply control that policymakers should bear in 
mind. First, a cautionary note about the numbers swirling about the 
drug policy debate is in order.
    Because they offer the aura of objectivity and precision, numbers 
are the coin of the realm in debates over public policy, including drug 
control, and have created the impression that we are measuring drug 
control progress in a sophisticated and meaningful way. But the variety 
of numerical estimates regarding the size and scope of the illegal drug 
industry are just that--estimates--and they should all come with a 
warning label: Handle with Care! The clandestine nature of the drug 
trade frustrates accurate quantitative measurement. Participants in an 
illegal activity obviously do not welcome scrutiny, and go out of their 
way to avoid detection. This applies not only to the drug smuggler 
trying to evade the police, but also to the drug user wanting to avoid 
social disapproval. Given the numerous, complex factors at play and the 
difficulties of gathering reliable information about a clandestine and 
dangerous activity, measurement uncertainty is a given.
    Rather than allowing these considerable uncertainties to be masked 
by seemingly precise figures, policymakers should insist that the 
uncertainties be made explicit, through presentation of the estimates 
as plausible ranges, not single figures (``point estimates''). To its 
credit, last year ONDCP began to present its Andean coca cultivation 
estimates as ranges, opening the door to more realistic consideration 
of the coca growing and cocaine production estimates. Specifically, 
ONDCP reported that its 2006 estimate of 157,200 hectares under coca 
cultivation in Colombia was ``subject to a 90 percent confidence 
interval of between 125,800 and 179,500 hectares.'' In other words, 
ONDCP was 90 percent confident that the true level of Colombian coca 
cultivation in 2006 was somewhere between 125,800 and 179,500 hectares.
Lesson 1: The Balloon Effect
    The first, and perhaps the most obvious lesson of recent drug 
control history is that there is essentially no such thing as unalloyed 
drug policy success on the supply side. This is because the so-called 
``balloon effect'' is as relevant as ever. Simply put, increased 
pressure on the drug trade at a given time and location tends to 
displace activities elsewhere, much as squeezing a balloon in one place 
forces it to expand in others. The balloon effect continues to describe 
the mobility of coca cultivation in Colombia, in the face of aerial 
herbicide spraying and forced manual eradication. It also applies to 
smugglers' adaptation to intensified enforcement pressure in one zone 
by shifting to new routes and/or new smuggling methods. As far as the 
evolution and status of Mexican drug trafficking organizations, the 
most momentous example of the balloon effect was the late 1980s-early 
1990s shift of Colombian traffickers away from their favored Caribbean 
and south Florida routes to the U.S. market and toward Mexico, where 
they partnered with Mexican criminal groups with pre-existing networks 
and smuggling routes into the United States. In addition, as relatively 
unsophisticated smuggling methods are countered by enforcement 
pressure, traffickers have adapted with new techniques, whether 
tunnels, semi-submersibles, utilizing container shipping, etc. In this 
way, enforcement operations that are trumpeted as successes often 
contribute, however unintentionally, to new scenarios that can be even 
worse and pose greater enforcement challenges than what came before.
    The balloon effect can also be thought of in policy terms, where 
apparent success in one supply control realm can increase the odds 
against success in another. This is especially important regarding the 
interplay between crop eradication and drug interdiction, which are 
typically presented as complementary approaches, but may work at cross-
purposes in practice. Drug interdiction is generally preferable to crop 
eradication, both on efficacy and justice criteria: crop eradication 
achieves little impact on traffickers' bottom lines or on overall 
supplies because the crops are so readily and inexpensively replaced, 
even as the brunt of enforcement falls on those who gain the least and 
suffer the most from the activities of the drug trade. Interdiction at 
least targets higher levels of the criminal organizations, and beyond 
the quantities of drugs seized, can provide information that helps to 
apprehend more significant drug trade figures. But success in 
interdiction (and traffickers' expectation that some significant 
fraction the drugs they are smuggling will not make it to their 
intended market) also increases traffickers' incentives to promote more 
cultivation, to make up for the anticipated losses.
    The importance of bearing in mind the balloon effect is that, while 
such consequences may well be unintended, at this point they can no 
longer be considered unforeseeable. Why belabor a point that seems as 
obvious as it is important? The answer is that, unfortunately, high-
ranking U.S. drug policy officials have appeared to be in denial about 
the balloon effect, engaging in wishful thinking rather than a 
realistic assessment of outcomes. For example, in touting the 
intensified pace of fumigation in Colombia in 2003, ONDCP Director John 
Walters declared that, for ``those who have been religious like 
believers in the balloon effect, the balloon is not growing, the 
balloon is not moving, the balloon is shrinking, and it's shrinking at 
historic levels. It's maybe time to get another God.''
    But the air has not gone out of the balloon effect, as subsequent 
U.S. estimates on coca growing and cocaine production have made clear. 
WOLA's new report on fumigation in Colombia, Chemical Reactions, 
documents how the aerial herbicide spray operations ``tend to reinforce 
rather than weaken Colombian farmers' reliance on coca growing, 
prompting more rather than less replanting, thereby contributing to 
coca's spread into new areas of the country.'' In designing strategies 
intended to reduce illicit crop growing or shut down smuggling routes, 
the balloon effect must be considered, not wished away. For example, if 
massive replanting continues to undermine forced eradication (a classic 
and recurring form of the balloon effect), then more realistic crop 
reduction strategies are required. Specifically, alternative 
livelihoods must be available to growers before pressure to curtail 
illicit crop growing can have any chance of sustainable success.
    In fact, the most recent United Nations Office on Drugs and Crime 
(UNODC) report on alternative development and crop eradication notes 
explicitly that ``some interventions continued to be improperly 
sequenced--focusing efforts and resources on eradication without due 
regard for livelihoods'' and recommends ensuring ``that eradication is 
not undertaken until small farmer households have viable and 
sustainable livelihoods and interventions are properly sequenced.'' 
U.S. policy should embrace this more promising approach and leave 
behind the many failures of forced eradication.
Lesson 2: Mature Markets, Robust Availability
    A second lesson to draw from the emphasis on supply control over 
the past few decades is that the targeted illicit drugs, including 
cocaine, have nevertheless remained quite available in the United 
States.
    A perennial goal of U.S. drug policy has been to disrupt supplies 
enough to constrain availability. Reduced availability would mean 
higher prices and lower purity, which would encourage users to lower 
their consumption, and discourage others from initiating use. With 
respect to cocaine and other illicit drugs that are largely, if not 
entirely, produced outside the United States, interdiction, crop 
eradication, and overseas law enforcement have been at the center of 
the effort to reduce drug availability domestically. Until fairly 
recently, the conventional wisdom had held that trying to discourage 
illicit drug consumption by driving up prices was unlikely to 
accomplish much, on the assumption that the heavy drug users who 
account for the bulk of drug purchases were not very sensitive to 
changes in price. However, the new consensus among analysts is that 
prices do matter (that is, demand for drugs like cocaine is considered 
somewhat elastic with respect to price), and that price increases--if 
actually achieved and then sustained--could contribute to reduced 
consumption.
    But even as this new consensus has taken shape, strong evidence has 
continued to accrue that cocaine prices have in fact been falling, not 
rising (similar trends prevail for heroin). The most recent 
comprehensive analyses, produced for ONDCP by the RAND Corporation and 
covering 1981 through mid-2003 (see figure below), showed U.S. 
wholesale and retail cocaine prices at or near their historic lows as 
of mid-2003, with purity at or near historic highs.
    In recent years, students' perceptions of cocaine's availability 
have been fairly stable, and periodic assessments by the Justice 
Department's National Drug Intelligence Center (NDIC) have offered no 
reason to suppose that U.S. cocaine availability has been squeezed:

[GRAPHIC] [TIFF OMITTED] T4772.009

    <bullet>  January 2005: ``Key indicators of domestic cocaine 
availability show stable or slightly increased availability in drug 
markets throughout the country. . . ''
    <bullet>  January 2006: ``Cocaine is widely available throughout 
most of the nation, and cocaine supplies are relatively stable at 
levels sufficient to meet current user demand.''
    <bullet>  October 2006: Despite record levels of cocaine lost or 
seized in transit toward the United States, ``there have been no 
sustained cocaine shortages or indications of stretched supplies in 
domestic drug markets.''
    Last November, ONDCP presented evidence of nationwide cocaine 
``shortages'' in 2007 including estimates that cocaine's price had 
climbed nearly 50 percent during the year's first three quarters. 
'While the methods behind these latest price estimates remain unclear, 
there seems little doubt that the U.S. cocaine market was disrupted in 
2007. The disruptions appeared to stem from factors such as stepped-up 
drug enforcement and interdiction by Mexican authorities, disputes 
within and between Mexican drug trafficking organizations, increased 
shipment of cocaine to European markets (where currencies had become 
stronger against the U.S. dollar), and perhaps increased cocaine 
distribution within transit countries. Taking all these factors into 
account, it would have been surprising if no market disruptions had 
been detected.
    But these shortages and concomitant price increases are likely to 
be temporary. NDIC's latest report, released in October 2007, put the 
disruptions in perspective, noting that Mexican drug trafficking 
organizations ``will most likely undertake concerted efforts to 
reestablish their supply chain, and because cocaine production in South 
America appears to be stable or increasing, cocaine availability could 
return to normal levels during late 2007 and early 2008.''
    Adjustments by suppliers resulting in rebounding cocaine 
availability would comport with the historical pattern displayed in the 
figure above, as occasional price spikes have always been followed by 
declines, as producers and smugglers respond to higher prices. The 
record demonstrates that price increases have occurred with some 
frequency--but the record makes it equally clear that such increases 
have proved to be rather short-lived. This is not to say that larger 
and more durable price increases are impossible, but rather that the 
track record suggests very strongly that even the most impressive 
increases are likely to give way, sooner rather than later, to resumed 
price declines.
    Price trends are of course a function of both supply and demand. 
While robust supply is evidently a large part of the equation, it may 
be that cocaine's historically low U.S. retail prices are also due to 
slackening demand. Indeed, total U.S. cocaine consumption appears to 
have peaked in the late 1980s, declined modestly through the 1990s, and 
then plateaued. There is no indication that consumption has been going 
down in recent years. Household and school-based surveys, for example, 
show that the percentage of Americans who use cocaine has remained 
basically stable since 2000. These surveys, however, say little about 
the numbers or consumption patterns of the chronic, heavy users who 
account for the bulk of cocaine consumption.
    The most recent published estimates of the number of chronic 
cocaine users and of total U.S. cocaine consumption were released by 
ONDCP in 2001; the estimates extended through 1999, with projections 
for the year 2000. Early in 2005, ONDCP received a study by Abt 
Associates that updated the cocaine consumption estimates through 2003. 
But more than 3 years later, ONDCP has still not released that study. 
One suspects that, had the study provided evidence of declining overall 
cocaine consumption, the findings would have been released by now. 
Given the importance of this issue, Congress should insist that ONDCP 
immediately clarify the status of the report.
    An important corollary to the inability to drive up cocaine prices 
is that the reductions in the prevalence of cocaine use that have been 
recorded historically cannot plausibly be attributed to supply control 
success. Since prices have fallen over time, not risen, it stands to 
reason that whatever factors may have accounted for reduced use, supply 
control programs have not been among them. For example, the National 
Household Survey on Drug Abuse (now the National Survey on Drug Use and 
Health) found that the number of current (past-month) cocaine users 
declined from an estimated 5.7 million in 1985 to 1.5 million in 1995. 
Over this period, cocaine's retail price fell fairly steadily, and in 
1995 the price stood at less than half its 1985 level. Clearly, the 
prevalence of cocaine use fell for reasons other than restricted 
availability and rising prices.
Lesson 3: Needle in a Haystack
    A third lesson arising from the long U.S. experience with 
aggressive supply control policies is that stemming illicit drug 
smuggling for sustained periods of time is unlikely to occur in a 
country and region that prizes international commerce and facilitates 
an enormous flow of legal goods across national borders. This lesson 
applies most emphatically to the U.S.-Mexico relationship. Last year, 
Mexico ranked as the third largest importer into the United States 
($211 billion, trailing only China and Canada), and as the United 
States second largest export market ($136 billion, trailing only 
Canada). As of 2004, about a million people and 300,000 cars and trucks 
crossed the U.S. border with Mexico every day. And at just one U.S.-
Mexico border post, about 15 million freight containers cross the 
border every year.
    Legal commerce on this scale presents drug traffickers with nearly 
boundless opportunities to smuggle their product into the United 
States, and as detection technologies are improved, traffickers adapt 
with new smuggling techniques and routes. Unless this enormous influx 
of commercial goods into the country is dramatically curtailed (a 
scenario both unforeseen and unwelcome), drug seizure statistics will 
mean little as measures of ultimate drug control success. The quote 
below by Carnegie Mellon University drug policy expert Jonathan 
Caulkins is from a 2003 book, but it remains as apt as ever:

        ``On the order of 300-400 metric tons of cocaine . . . enter 
        the United States each year. Those quantities are a tiny, tiny 
        fraction of the corresponding numbers for legitimate commerce, 
        and that is what makes interdiction so difficult. . . Even with 
        seizure rates of 25-40 percent, cocaine keeps flowing in at 
        prices that, while high compared to legal drugs such as tobacco 
        and alcohol . . . are still low enough to retain a mass market. 
        The counter-drug experience with interdiction is sobering: 
        making U.S. borders impermeable to cocaine and heroin has 
        proven impossible. In a free society with substantial 
        international trade and tourism, `sealing' the borders is not 
        practical.''

              THE U.S.-MEXICO BORDER AND DRUG TRAFFICKING

    The partnership between Colombian and Mexican drug trafficking 
organizations that took root in the 1990s did not bode well for Mexico. 
In the years since, the Mexican organizations have asserted their 
dominance over the lucrative trafficking routes and networks into and 
within the United States, growing in reach, wealth and firepower. 
According to the Justice Department's NDIC, Mexican trafficking groups 
now ``control the transportation and wholesale distribution of most 
illicit drugs in every area of the country except the Northeast,'' and 
their ``established overland transportation routes and entrenched 
distribution networks enable them to supply primary and secondary drug 
markets throughout these regions.'' The Southwest border region ``is 
the principal arrival zone for most drugs smuggled into the United 
States.''
    Even as the Mexican drug trafficking organizations were gaining 
strength, Mexican politics and government was becoming more 
democratized, with the end of the PRI's long-standing monopoly on 
elected office. Old trafficking arrangements that existed under the PM 
began to crumble as state, local and Federal offices were at times held 
by three different political parties. Traffickers confronted a more 
complex political environment in which to do business. They had to 
confront, intimidate or buy-off new actors. The illicit drug trade in 
Mexico has been extremely violent in recent years. Much of the violence 
seen today relates to conflicts over key smuggling routes between rival 
cartels. But as government officials have sought to enforce the law, 
the police have been increasingly targeted. From January through April 
2008, on average 27 police officers were killed each month, and in May 
the toll climbed to 64. As of mid-May, the Mexican media had tallied 
1,245 cartel-related killings for the year, including the assassination 
of the acting head of the country's Federal police, who had played a 
key role in organizing recent government operations against the Sinaloa 
cartel.
    Upon taking office in December 2006, Mexican President Felipe 
Calderon launched a series of high-profile military and police 
operations in states where organized crime was believed to be most 
concentrated. These operations have included 27,000 soldiers as well as 
Federal police. However, the surge in violence does not appear to be 
abating in response to these tactics. On the contrary, as illustrated 
by the killing of the head of the Federal police, the drug trafficking 
organizations have targeted senior government officials in Mexico City, 
as well as targeting high-ranking operatives in rival cartels. Like 
Calderon, his predecessors Ernesto Zeclillo and Vicente Fox came into 
office promising to tackle organized crime and violence, expanding the 
role of the military to restore public order. Their efforts generated a 
temporary sense of improved citizen security through purges of corrupt 
officers, the creation of new forces, and a visible reliance on the 
military that brought some tactical victories, including the capture of 
a number of important cartel leaders. But the gains were eroded as new 
trafficking leaders and organizations emerged and government officials 
have been intimidated or corrupted.
    Against this backdrop, in October 2007, the U.S. and Mexican 
governments issued a joint statement announcing the ``Merida 
Initiative,'' a multi-year plan for U.S. aid to help Mexico and Central 
Americans combat drug trafficking and organized crime. The Initiative 
has been billed as a cooperative effort between the U.S. and Mexican 
governments. It is clear that U.S. demand fuels the drug trade, and the 
easy availability of guns in the United States has helped turbo-charge 
drug violence in Mexico--where officials calculate that 90 percent of 
confiscated firearms originate north of the border. Yet there is 
nothing in the Merida Initiative about what the United States will do 
to reduce demand, curb money laundering or slow the flow of weapons 
south. While the Bush Administration requested $500 million for Mexico 
for FY2008, the Congress appears likely to approve reduced but still 
significant funds in the pending ``war supplemental'' appropriations 
bill.
    In any case, U.S. policymakers should recognize that the Merida 
Initiative is unlikely to have much impact on the availability of 
illicit drugs in the United States. Mexico's crucial challenge is to 
buttress civilian institutions--especially the police, prosecutors and 
the judicial system--and invest in crime prevention. While the military 
can at times provide temporary relief, by occupying an area, only 
effective rights-respecting police and judicial institutions will be 
able to provide lasting solutions. Even if Mexico succeeds in 
diminishing the drug-related violence that racks that country today, it 
will not necessarily entail or lead to a reduction in the flow of 
illicit drugs into the United States. Given the scope of U.S.-Mexican 
legal commercial relations and a continued strong demand for illicit 
drugs within the United States, the drugs will flow.

                              CONCLUSIONS

    The lessons drawn from the United States' many years in vigorous 
pursuit of supply side drug control victories--the persistence of the 
balloon effect, the resilience of illicit drug markets, and the 
impossibility of ``sealing the borders''--suggest that the United 
States' supply control objectives and expectations should be brought 
into line with reality. There will be no quick fixes, no silver bullets 
(e.g., fumigation). In the long term, sustained efforts to create 
alternative livelihoods and to strengthen justice institutions in 
producer and transit countries hold promise for reducing the scope and 
depredations of the illicit drug industry, but such an approach will 
require patience and a departure from a results-now mentality obsessed 
with crop and seizure statistics.
    Moreover, even the most well-conceived and painstakingly 
implemented efforts on the supply side will stand little chance of 
success over time if the lucrative markets for illicit drugs (still 
anchored by the advanced industrial nations, including the United 
States), continue to grow. There is a strong case for much more 
ambitious efforts to reduce the size of the illicit market through 
proven demand-side programs such as treatment. But even so, dramatic 
declines in the size of illicit drug markets should not be expected any 
time soon. Rather than continue the search for the silver bullet, 
policymakers would do well to recognize that illicit drugs pose a 
perennial problem that cannot be eliminated, but can be managed 
significantly better than we have done thus far. This entails adopting 
a harm reduction approach that, broadly speaking, seeks to minimize the 
harms associated with illicit drug production, distribution and use, 
but also to minimize the harms generated by policies meant to control 
illicit drugs.
    I applaud Chairman Webb and this Committee for helping to initiate 
a different, more constructive discussion about drug policy, and for 
ensuring that the debate includes both the international and domestic 
concerns.
                               __________
Prepared Statement of Anne J. Swern, First Assistant District Attorney, 
                    Kings County, Brooklyn, New York

    Mr. Chairman and members of the Committee--Good morning and thank 
you for the invitation to testify today about two innovative 
prosecutor-run programs that seek to reduce drug abuse, improve public 
safety, and save money.
    My name is Anne J. Swern. I am the First Assistant District 
Attorney in Kings County (Brooklyn), New York. I have served the public 
as a prosecutor in Brooklyn for almost 28 years under three elected 
district attorneys, the most recent being Charles ``Joe'' Hynes, who 
has been in office since 1990 and is Brooklyn's longest serving DA. By 
way of brief background, our county has a population of 2\1/2\ million 
people. It is the most populous county of New York State's 62 counties, 
and the seventh largest county in the United States. Last year our 
office prosecuted over 6,400 felony cases. Approximately 2,100 were for 
the possession or sale of drugs. Clearly, Brooklyn, like so much of the 
U.S., is still tackling the serious problem of drug crime. However, we 
have made great strides since the late eighties and early nineties when 
drug crime was rampant. (For example, in 1989, there were a record 
number of 12,640 felony drug arrests in Brooklyn.)
    In those days, New York State principally dealt with drug crime 
through enforcement of the notoriously tough Rockefeller Drug Laws, 
which mandated long prison sentences for the possession or sale of even 
small amounts of drugs. The so-called ``revolving door'' phenomenon 
became the unhappy metaphor defining our criminal justice system--
addicts committing crime so that they could get money to get high, then 
being arrested and sent to prison for a few years, only to come back 
out of prison still desperate for drugs, and renewing the cycle of 
addiction, crime, and imprisonment. Clearly, as DA Hynes repeatedly 
asserted, we could not prison-build ourselves to a safer society.
    I'll be focusing today on two programs that DA Hynes created to 
combat this ``revolving-door'' of substance abuse and drug-related 
crime. The first program, the Drug Treatment Alternative-to-Prison 
program, called ``DTAP,'' diverts addicted offenders into long-term 
community-based substance abuse treatment in lieu of incarceration. The 
second program, Community and Law Enforcement Resources Together, 
called ``ComALERT,'' focuses on recidivism reduction through effective 
re-entry for former prison inmates returning to their Brooklyn 
communities.
    These two programs--one addressing offenders entering the criminal 
justice system; the other addressing former inmates re-entering their 
communities--have had profound positive impact on individuals and 
communities. With me today is Norma Fernandes, who is a graduate of 
DTAP and also the current Community Coordinator of our ComALERT reentry 
program, and she will be able to provide a unique insight into that 
impact. These prosecution-run programs--DTAP and ComALERT--also make 
sound fiscal sense. Monies are invested in changing lives and nurturing 
a strong economic base for communities, rather than just poured into 
prisons to house a revolving-door population of addicted offenders.
    There are two aspects of these programs that I want to emphasize 
because they are integral to their success.
    First, these programs are run by the District Attorney's Office. 
Prosecutors can and should be involved in programs that go beyond a 
reactive approach to crime. Ultimately, a district attorney's 
responsibility is to ensure and, if possible, improve public safety. 
Programs that effectively treat the underlying causes of an offender's 
criminal behavior fulfill that mission by reducing recidivism. By 
spearheading these programs, prosecutors enhance community safety and 
gain the support of those whom they serve. Furthermore, because the 
community knows that the district attorney's foremost concern is public 
safety, the community trusts prosecutors to run these programs in a 
responsible manner and minimize any danger. This aspect distinguishes 
prosecutor-run programs from many other models, including certain drug 
court models, and makes these programs especially suitable to repeat 
offender or more serious offender populations.
    Second, these programs, while prosecution-run, are nevertheless 
based on collaboration with entities normally outside the criminal 
justice sphere. Prosecutors are not clinicians. They do not have the 
expertise to evaluate or treat the disease of drug addiction. However, 
by joining forces with drug treatment providers, prosecutors can 
successfully address the root causes of an addict's criminal behavior. 
Furthermore, collaboration with other social service agencies, for 
example those dealing with employment, housing, education, mental 
health, and family related issues, ensures that the many additional 
needs of these forensic clients are met. In a nutshell, these programs 
embody a holistic approach to the individual, while never forgetting 
the paramount importance of protecting the public.

                                  DTAP

    In 1990, DA Hynes launched DTAP in Brooklyn. This prosecution-run 
treatment diversion program targets non-violent repeat felony offenders 
with serious drug addictions--a population almost entirely overlooked 
for diversion in 1990, and one which, even today, is still considered 
by many jurisdictions as too high-risk or difficult to divert from 
incarceration. DTAP has achieved significant success in reducing drug 
abuse and criminal recidivism in its target population, and it offers 
jurisdictions a cost-efficient option for tackling the twin scourges 
drug addiction and addiction-motivated crime in their communities.
    As of June 1, 2008, 2,594 defendants have been accepted into 
Brooklyn's DTAP since the program's inception. Of those participants, 
349 are still in treatment and 1,095 have completed the program and 
have had their charges dismissed. In 2003, the National Center on 
Addiction and Substance Abuse (CASA) at Columbia University completed a 
5-year federally funded study of DTAP and issued a White Paper 
summarizing its findings. (National Center on Addiction and Substance 
Abuse at Columbia University, Crossing the Bridge: An Evaluation of the 
Drug Treatment Alternative-to Prison (DTAP) Program (2003)). In the 
accompanying statement to the CASA White Paper, former United States 
Secretary of Health, Education and Welfare Joseph A. Califano, Jr., now 
CASA's chairman and president, hailed Brooklyn DTAP as a ``promising 
example of what law enforcement can do to reduce the number of addicted 
drug offenders.'' (Id. at ii).
    There are two key premises behind DTAP (and behind drug courts for 
that matter): (1) that the criminal recidivism of addicts can be 
reduced if the addiction is effectively treated; and (2) that legal 
coercion can be a powerful motivator to get addicts to succeed in 
treatment. In 1990, these premises were not widely accepted in the law 
enforcement community; however, now, over a decade and a half later, 
research has confirmed that legal coercion can help addicts enter and 
stay in treatment, and extended treatment can successfully address 
their debilitating disease and reduce criminal recidivism.\1\ The 
proliferation of drug courts, which now exist in all 50 states, 
confirms the popularity of treatment diversion.
---------------------------------------------------------------------------
    \1\ The National Institute on Drug Abuse has recognized, as one of 
its principles of effective drug addiction treatment that treatment 
does not have to be voluntary to be effective; rather, sanctions and 
enticements in the criminal justice system can ``increase significantly 
both treatment entry and retention rates and the success of drug 
treatment interventions.'' Nat'l Institute on Drug Abuse, Nat'l 
Institute of Health Principles of Drug Addiction Treatment: A Research-
Based Guide 5 (1999).
---------------------------------------------------------------------------
    However, if chronic drug offenders are going to be diverted into 
community treatment, it is imperative that the safety of the public at 
large and of those within the drug treatment program themselves (the 
non-forensic clients, the counselors, and staff) not be jeopardized 
during the diversion period. The concern over the risk to public safety 
naturally increases with the severity of the criminal offender's 
pending charges, of his or her criminal history, and of his or her 
addiction. The chronic drug user, who is a serious, albeit nonviolent, 
repeat felony offender, combines the desperation of the hard-core 
addict with the demonstrated propensity to repeatedly engage in 
criminal behavior despite previous periods of incarceration. Such an 
individual poses a higher risk to public safety than an offender 
charged with drug possession as a misdemeanor or a first felony. At the 
same time, it is precisely from this group of individuals that society 
stands the most to gain if treatment is successful.
    In order to reap these benefits without sacrificing public safety, 
DA Hynes created DTAP, the nation's first prosecution-run treatment 
diversion program aimed at prison-bound repeat felony offenders. DTAP 
is based on a deferred-sentencing model that is, the sentence is 
deferred while the defendant undergoes treatment. A defendant, who has 
been charged with a felony offense, pleads guilty to a felony with the 
following understanding: If the defendant successfully completes a 
residential substance abuse treatment program, the defendant will be 
allowed to withdraw the plea of guilty and the case will be dismissed 
by the court, with the prosecutor's consent, in the interest of 
justice. However, if the defendant fails to complete the program (for 
example, he absconds from the program), the court will impose upon the 
defendant the previously negotiated prison sentence applicable to the 
felony.
    So what are the core elements of DTAP? Essentially, there are seven 
elements:
    <bullet>  First, DTAP targets repeat non-violent felony offenders 
who, if convicted, face mandatory imprisonment under the State's 
predicate offender sentencing laws. DTAP accepts both defendants 
charged with drug offenses and defendants charged with other non-
violent offenses such as larcenies and commercial burglaries, so long 
as the defendant is truly drug addicted and his conduct was motivated 
in large part by that addiction. In carefully screening candidates with 
regards to violence, we look beyond the charges appearing on the rap 
sheet, because a DTAP candidate may have serious violence issues that 
haven't made it into his or her criminal history--for example, a 
history of domestic violence or gang-related violence. For that reason, 
our warrant enforcement team does a background check on each candidate. 
It's crucial that we don't compromise the safety of the clients and 
staff of the community-based treatment facilities when we send them 
DTAP clients.
    <bullet>  The second key element of DTAP is that the eligible 
offender must be drug-addicted and in need of substance abuse 
treatment, and the offender's addiction must have been a significant 
contributing factor to his or her crime. In Brooklyn, we use the 
experienced clinicians at TASC to assess the treatment needs of DTAP 
candidates. Spending treatment dollars on those who are not addicted is 
not just a waste of money but it also compromises the treatment of 
those who are addicted.
    <bullet>  A third element of DTAP is that the offender is diverted 
into long-term, intensive residential substance abuse treatment which 
includes educational and vocational training, employment assistance, 
and a period of aftercare. Defendants with extensive drug histories who 
have repeatedly engaged in criminal activities to finance their drug 
habits, i.e., DTAP's target population, require intensive intervention 
and rehabilitation to support re-integration into society. For many 
DTAP participants, the environment in which they were living (the 
people with whom they were associating and the places that they 
frequented) bolstered their drug addiction. The participants need to be 
removed from that environment for a significant length of time (usually 
15 to 24 months) to begin the process of recovery and re-socialization.
    <bullet>  Fourth, in DTAP, the prosecution carefully monitors the 
offender's progress in treatment. While the DTAP participant is in 
treatment, TASC receives regular updates on the participant's progress 
from the treatment provider. These updates include assessments of the 
participant's compliance with the provider's rules, the participant's 
psychological and mental status, and the results of drug tests 
(urinalysis). TASC, in turn, provides constant updates to the District 
Attorney's Office and to the court about each defendant's progress. 
Close monitoring by the prosecution helps satisfy the criminal justice 
concern of not compromising public safety.
    <bullet>  Fifth, if the DTAP participant fails the program, either 
by violating the treatment provider's rules or by absconding, the 
offender faces a set term of imprisonment that was clearly conveyed to 
the offender prior to diversion into treatment. Up until 1998, DTAP 
used a deferred prosecution model--that is, the charges were held in 
abeyance while the defendant underwent treatment, and if the defendant 
failed treatment, the case would proceed to trial or plea. In 1998, we 
switched to a deferred-sentencing model, under which the defendant 
enters a guilty plea up front. Thus, the risk associated with failure 
shifted from a strong probability of a prison sentence under the old 
model, to a virtual guarantee of a prison term under the new model. The 
switch in models in 1998 significantly increased treatment retention 
rates. For those defendants admitted to DTAP under the deferred-
prosecution model, the 1-year treatment retention rate was 64 percent. 
Under the deferred sentencing model, the current 1-year retention rate 
has risen to 76 percent--a difference of 12 percentage points.
    Why is this substantial increase in the 1-year retention rate so 
important? Because research shows a positive correlation between the 
length that a defendant stays in treatment and the likelihood of that 
individual not re-engaging in drug use and criminal activity. That is, 
if an offender stays in treatment for at least 12 months, there is a 
greater likelihood that drug treatment will be effective in the long 
term.
    In short, certainty of punishment plays a crucial role in a drug-
addicted defendant's successful rehabilitation. Although we recognize 
that relapse is part of the recovery process, and evaluate applications 
for readmission on a case-by-case basis, every DTAP participant knows 
that he or she faces a sentence of imprisonment if, after being given a 
reasonable chance to succeed he or she absconds from treatment or fails 
to complete the program. The prison alternative--the external 
motivation--is the extremely valuable incentive for defendants to enter 
and stay in drug treatment.
    <bullet>  The sixth key element of the DTAP program is the 
prosecution's warrant enforcement team that investigates the background 
of each DTAP candidate, quickly apprehends any offender who absconds 
from treatment, and returns that absconder to court for sentencing. 
Maintaining this enforcement team allows us to minimize the risk in 
diverting repeat felony offenders. Indeed, as a result of these 
precautions, 90 percent of DTAP participants who abscond from treatment 
are returned to court in a median time of 21 days.
    <bullet>  And finally, the seventh key element--if the offender 
successfully completes the DTAP program, the felony charge or charges 
are dismissed and the graduate continues to have at his or her disposal 
the employment assistance services of the DTAP job developer. To 
graduate from the DTAP program, a participant must have successfully 
completed all phases of the drug treatment plan. The participant also 
must have housing and a job or comparable means of subsistence (for 
example, the defendant is in funded vocational training or, if 
seriously ill, on some kind of medical disability). These conditions 
are fully explained to the defendant prior to entry of the guilty plea, 
and they are integral to the DTAP agreement.
    So, in sum, those are the seven key elements of DTAP.
    The researchers at CASA (National Center on Addiction and Substance 
Abuse) at Columbia University conducted a 5-year evaluation of DTAP 
which was sponsored by the Federal Government. CASA concluded that DTAP 
did indeed reduce recidivism. An analysis comparing those who graduated 
from DTAP to those of the matched comparison group who served time in 
prison revealed these dramatic findings: DTAP graduates had rearrest 
rates that were 33 percent lower (39 percent vs. 58 percent), 
reconviction rates that were 45 percent lower (26 percent vs. 47 
percent), and were 87 percent less likely to return to prison (2 
percent vs. 15 percent) 2 years after completing the program than the 
matched comparison group 2 years after leaving prison.
    CASA's research also revealed that DTAP graduates are three and 
one-half times likelier to be employed after completing the program 
than they were prior to the arrest that caused them to enter the 
program (92 percent v. 26 percent).
    Finally, the CASA team concluded that DTAP's results were achieved 
at about half the average cost of incarceration. CASA calculated that 
the average cost for a DTAP participant was $32,975, and compared that 
to the average cost of $64,338, if that same person had been sent to 
prison. We've conducted our own analysis of the economic benefits 
derived from the implementation of the DTAP program. Our analysis of 
the savings realized o correction, health care, public assistance and 
recidivism costs combined with the tax revenues generated by the DTAP 
graduates indicates that diversion to DTAP has resulted in economic 
benefits of about $44 million dollars per the 1,095 graduates thus far.
    These statistics amply demonstrate that diversion to DTAP doesn't 
just make sound sense from ethical and criminal justice points of view, 
but also from a basic fiscal point of view as well. For these reasons, 
DTAP has been embraced by all five district attorneys in the counties 
that make up New York City, and has been implemented by several other 
district attorneys throughout New York State. Over the years, DTAP has 
attracted the attention of researchers, criminal justice practitioners, 
and lawmakers concerned about reducing drug-related crime and the high 
costs of incarceration.
    Federal criminal justice and public health agencies that promote 
best practices in substance abuse control have repeatedly endorsed and 
disseminated the success of DTAP, and as early as 2000, Federal 
lawmakers began introducing legislation that would fund DTAP programs 
across the country. The day of Federal DTAP legislation finally arrived 
on April 9, 2008, when President Bush signed into law the Second Chance 
Act. A key section of that legislation authorizes Congressional 
appropriations of $10 million dollars to be used for grants to state 
and local prosecutors creating and implementing DTAP programs. The 
seven key DTAP elements which I previously discussed would distinguish 
these prosecution-run programs.
    Now, the question is--will Congress follow through and appropriate 
the funds that the Second Chance Act has authorized? I would urge it do 
so.

                              B. COMALERT

    Just as diverting addicted offenders from prison into drug 
treatment can be an effective means of reducing recidivism and thereby 
promoting public safety, so too can making sure that ex-offenders 
receive substance abuse treatment and transitional employment and other 
social services once they return to the community. Because successful 
re-entry can have such a positive impact on an individual's and, by 
extension a community's, well-being, DA Hynes created, in close 
collaboration with Counseling Service of EDNY (an out-patient drug 
treatment provider), the Doe Fund (a provider of transitional 
employment and housing), the New York State Division of Parole, and 
numerous community-based social services providers, ComALERT--Community 
and Law Enforcement Resources Together--a re-entry partnership program 
for Brooklyn residents who are on parole and who have been mandated to 
engage in substance abuse treatment.
    The program started in 1999, but underwent several changes, until 
it assumed its present structure in October 2004. There are currently 
approximately 150 active participants in ComALERT. For most clients, 
the program last three to 6 months. From October 1, 2004, to May 31, 
2008, 743 clients graduated the program, and the program graduation 
rate is 55.7 percent.
    Most ComALERT clients are recently released from prison and are 
referred to the program by Parole. At ComALERT's downtown Brooklyn 
location, clients receive outpatient substance abuse treatment from 
licensed counselors and attend individual counseling and group 
sessions. They are regularly tested by for drug use. Once drug testing 
results verify that a ComALERT participant has been drug and alcohol 
free for at least 30 days, he or she can begin engaging in other 
services, and, per the referral of the primary counselor, will meet 
with ComALERT's Community Resources Coordinator.
    Approximately one-third of ComALERT clients receive a referral to, 
and preferential placement in, the Doe Fund's Ready Willing & Able 
(RWA) program, which provides transitional employment, transitional 
housing (if needed), job skills training, 12-step programs, and courses 
on financial management and other life skills. RWA participants work 
full time in manual labor jobs, primarily street cleaning, and are paid 
$7.50 per hour. A portion of the salary is deposited directly into a 
savings account for the client. After 9 months of transitional 
employment, participants begin the search for a permanent job. During 
this process, they continue to receive a stipend. Once RWA participants 
secure permanent employment and housing, they graduate from the 
program, and the Doe Fund continues to provide them with $200 per month 
for 5 months. ComALERT's weekly individual and group counseling 
sessions and periodic drug testing help clients maintain sobriety and 
their enrollment in RWA, which enforces a zero-tolerance policy for 
drug and alcohol use.
    In addition to providing referrals for RWA and other transitional 
employment, ComALERT's Community Resources Coordinator also links 
participants to a wide range of other social services offered by 
community-based providers, such as transitional housing, vocational 
training, GED test preparation, family counseling, and job readiness 
programs. Service referrals are specifically tailored to meet the needs 
of the individual clients.
    On site, at the ComALERT Re-Entry Center, participants may attend 
HIV/STD/hepatitis, and meet with an onsite doctor who conducts physical 
health assessments and provides referrals as necessary. ComALERT 
participants who need mental health treatment, but only at a moderate 
level, may receive such treatment from their ComALERT primary 
counselor. If the client has a serious and persistent mental illness 
and needs treatment involving medication, the primary counselor or the 
onsite doctor will refer the client to an outside mental health 
treatment provider. ComALERT plans to augment, in the near future, the 
range of wraparound services offered onsite.
    Professor Bruce Western of Harvard University recently completed 
research evaluating ComALERT. Professor Western analyzed the recidivism 
rates of ComALERT graduates from July 2004 to December 2006, and 
compared those rates to all ComALERT attendees for that period (i.e., 
for all participants regardless of whether they graduated or were 
discharged) and to those of a matched control group of Brooklyn 
parolees who did not participate in ComALERT. Outcome percentages for 
ComALERT graduates were substantially better in all categories when 
compared to those of a matched control group. One year after release 
from prison, parolees in the matched control group (who did not have 
the benefit of ComALERT) were over twice as likely to have been re-
arrested, re-convicted, or re-incarcerated as ComALERT graduates. Even 
2 years out of prison, ComALERT graduates showed far less recidivism 
than the parolees of the matched control group. Twenty-nine percent of 
ComALERT graduates were re-arrested, 19% re-convicted, and only 3% re-
incarcerated for new crime.\2\ By contrast, 48% of the matched parolees 
were re-arrested, 35% re-convicted, and 7% re-incarcerated on a new 
crime. Even re-incarceration based on parole violations occurred much 
less frequently for ComALERT graduates (16%) than for parolees in the 
matched control group (24%).
---------------------------------------------------------------------------
    \2\ Although the comparison is imperfect, the recidivism rates of 
ComALERT graduates were dramatically lower than for prisoners released 
from state prisons in general. A study conducted in 2002 of inmates 
released from state prisons in 1994, concluded that, 2 years after 
release, approximately 59% had been re-arrested, 36% re-convicted, and 
19% re-incarcerated for a new crime. P. Langan & D. Levin, RECIDIVISM 
OF PRISONERS RELEASED IN 1994 at 3, table 2 (U.S. Dep't of Justice, 
Bureau of Justice Statistics, NCJ 193427, June 2002).
---------------------------------------------------------------------------
    As to employment, ComALERT graduates were nearly four times as 
likely to be employed as the parolees in the matched control group, and 
they also had much higher earnings than parolees in the control group.
    These results validate ComALERT as an effective collaborative model 
for ensuring that ex-offenders make a successful transition from prison 
to the community. In light of its success at reducing recidivism and 
increasing employment, the ComALERT re-entry model should continue to 
garner fiscal support.
    New York taxpayers pay over $2.5 billion a year to maintain prison 
operations. In New York City, it costs $67,000 per year to house an 
inmate in jail.\3\ Each time a person is re-arrested and sent to jail, 
it costs $183 a day to house the person. In contrast, providing a 
person with ComALERT's drug treatment and case management services 
costs only $10 a day and providing a person with wages for the Doe 
Fund's transitional employment costs only $44 a day. These figures show 
that an effective re-entry program targeted at reducing the number of 
parolees returning to prison has the potential to save New York a 
significant amount of money.
---------------------------------------------------------------------------
    \3\ According to the New York City Independent Budget Office, this 
figure does not include a multitude of additional costs attributable to 
jail operations, including, but not limited to, pension and health care 
costs of jail employees and debt services costs associated with jail 
construction and renovation. If all those additional costs are taken 
into account, the average annual cost per city jail inmate vaults to 
$113,276 per year, or $310 per day.
---------------------------------------------------------------------------
    Thus, not only does ComALERT meet the long-term goal of reducing 
crime to increase public safety, but this enlightened approach to law 
enforcement also makes sound economic sense. The New York State 
government has wisely decided to invest funds in ComALERT. On a 
national level, the recently enacted Second Chance Act of 2007 offers 
hope that prosecutors throughout the country could implement their own 
ComALERT re-entry partnership programs. Of course, once again, it is up 
to Congress to now appropriate all the Federal funding authorized by 
the Second Chance Act.
    Both the ComALERT and DTAP models offer jurisdictions cost-
effective means for reducing drug-addiction related crime--one of our 
nation's most pernicious social problems. Despite decades of well-
meaning state and Federal efforts to tackle the problem, our country is 
still facing a drug abuse crisis. In a report released in March, the 
Office of National Drug Control Policy noted that there were over 20 
million drug users and approximately 7 million chronic drug users (drug 
dependent or drug abusers) in the U.S. in 2006 (Office of Nat'l Drug 
Control Pol'y, Exec. Office of the President, Current State of Drug 
Policy: Successes and Challenges, at 5 (2008)). The same group 
estimated the economic cost of drug abuse to be $180.9 billion in 2002 
(Office of Nat'l Drug Control Pol'y, Exec. Office of the President, The 
Economic Costs of Drug Abuse in the United States, 1992-2002 at vii 
(2004)). Of that overall sum, an estimated $107.8 billion were crime-
related costs (Id. at xii). In fact, the most rapid growth in drug 
abuse costs from 1992 to 2002 came from ``increases in criminal justice 
system activities, including productivity losses associated with growth 
in the population imprisoned due to drug abuse'' (Id. at xiii).
    The precise nature of the nexus between drugs and crime continues 
to be investigated and debated, but that such a nexus exists appears 
beyond dispute. According to the Arrestee rug Abuse Monitoring Program 
(ADAM) Annualized Site Report for Manhattan, New York, among samples of 
adult males arrested in 2002, over three-quarters (81 percent) tested 
positive for at least one kind of illicit drug, and over a quarter (26 
percent) tested positive for multiple drugs. Among males and females 
arrested for drug offenses, almost all (91 percent and 92 percent, 
respectively) tested positive for some kind of illegal drug. Nationwide 
in 2000, in half the 35 ADAM sites, urinalysis indicated that 64 
percent or more of adult male arrestees had recently used at least one 
of five drugs: cocaine, marijuana, opiates, methamphetamine, or PCP 
(phenocyclidine). (Nat'l Inst. of Justice, U.S. Dep't of Justice, 
Arrestee Drug Abuse Monitoring 2000 Annual Report 1 (2003)).
    According to a 1997 survey of inmates in state prison, 83 percent 
reported past drug use and 57 percent were using drugs in the month 
before their offense. (Christopher J. Mumola, U.S. Dep't of Justice, 
Bureau of Justice Statistics, Special Report: Substance Abuse and 
Treatment, State and Federal Prisoners, 1997, at 1 (1999)). A third of 
state prisoners said that they had committed their current offense 
while under the influence of drugs. Drug offenders (42 percent) and 
property offenders (37 percent) reported the highest incidence of drug 
use at the time of the offense. (Id. at 3). Nineteen percent of state 
prisoners said that they had committed their current offense to obtain 
money for drugs. (Id. at 5). Tragically, statistics tell us that when 
these drug-abusing inmates leave prison, they are likely reoffend. 
Recidivism rates for drug offenders are depressingly high. In a 15-
state study of prisoners released in 1994, 66.7 percent of the drug 
offenders were rearrested within 3 years and 47 percent were 
reconvicted of a new crime within that period (Patrick A. Langan & 
David Levin, U.S. Dep't of Justice, Bureau of Justice Statistics, 
Recidivism of Prisoners Released in 1994, NCJ 193427, at 8 table 9 
(2002)).
    While community-based treatment and other wraparound social 
services carry a price tag, their cost is much less than that of 
incarceration in prison, especially when one considers the 
effectiveness of diversion and re-entry programs at reducing 
recidivism. Many states throughout the country are now confronting the 
crippling costs of an exploding prison population.\4\ The DTAP and 
ComALERT models that we have used so successfully in Brooklyn transform 
lives, improve communities, and save money. These programs deserve to 
be replicated in jurisdictions around the country, and Congress should 
ensure that adequate funding is appropriated for that goal.
---------------------------------------------------------------------------
    \4\ As of June 30, 2007, the state prison population in the U.S. 
had swelled to 1,395,916 inmates. William J. Sabol, U.S. Dep't of 
Justice, Bureau of Justice Statistics, Prison Inmates at Midyear 2007, 
NCJ 221944, at 3 table 2 (June 2008)
---------------------------------------------------------------------------
                               __________
  Prepared Statement of Norma Fernandes, Kings County (Brooklyn), New 
                                  York

    The youngest of three children, I grew up in a dysfunctional 
environment. When I was eleven, my mother passed away from cirrhosis of 
the liver. At age fifteen, I dropped out of high school because I was 
addicted to heroin. The foundation of my teenage years revolved around 
jail and the street corners of Brooklyn . . . either selling drugs or, 
at a more desperate time, robbery. Because of my addiction, I didn't 
care who I hurt. After many attempts to get sober through 30-day 
detoxification, as well as time in jail, these experiences did nothing 
to keep me off drugs. Although time in jail prevented me from 
committing crimes while I was there, it gave me only the opportunity to 
clean out my system, rest, and time to think about how I would become a 
better criminal when I would eventually be released. Thfs was the cycle 
of my life until when, at age twenty-two, I decided to enroll in a 
methadone program.
    At the time of my final arrest, I was on ninety (90) milligrams of 
methadone and charged with felony-level criminal sale of a controlled 
substance. I knew I had effectively outgrown my ``status'' with the New 
York City Department of Corrections, and would soon find myself in an 
upstate prison. Fortunately for me, the Brooklyn D.A Charles J. Hynes 
believed in substance abuse treatment alternatives instead of prison, 
and for this I'll always be grateful to him. I never thought I would 
ever be able to live my life without getting high and committing 
crimes; however, I was given the opportunity to participate in DTAP. I 
was diverted into a program of long-term residential drug treatment 
instead of going upstate to prison.
    Detoxifying off the methadone at Rikers Island (New York City's 
jail) was a nightmare. I lost 45 pounds in less than 2 months, and felt 
like I was going to die. I had no appetite, nor was I able to sleep as 
my body reacted violently and painfully to the awful withdrawal from 
methadone. It was an agonizing process that included many fights with 
fellow sufferers, undoubtedly because I was still a sick, suffering, 
and very angry person during this period.
    I was later mandated to Samaritan Village, a therapeutic community 
located in Ellenville, in upstate New York. My time spent there will 
never be forgotten. It wasn't easy adjusting to a structured 
environment and sitting in groups, and when I arrived to Samaritan 
Village, I was scared, angry, and lonely. As time went on, however, I 
began to learn a lot more about myself, the real me, and I can proudly 
say that Samaritan Village helped me to grow up. I obtained my GED 
while there, learned how to live life soberly and responsibly, and 
learned how to set short and long-term goals. These experiences 
empowered me and encouraged me to strive hard so I could accomplish 
anything I want to achieve in life.
    Today I'm a college graduate, and owner and landlord of a four-
family building in Brooklyn. I'm also a proud single parent with a very 
intelligent, level-headed daughter. I love the person I am today. I 
have no doubt that had I not been offered the chance to enter long-term 
residential treatment, I would not have set any positive goals nor 
accomplished them, and definitely would not be here today sharing this 
story. The only choices guaranteed me in the future I would've faced 
back then were pretty grim: either become a recidivism statistic in 
prison with an even higher sentence, or a death statistic buried in a 
cemetery somewhere. Instead, I have accomplished every goal I've set 
for myself, and will continue to be prosperous in everything I do. Is 
this an individual with high self esteem or what?
    I am now employed by the Kings County District Attorney's Office as 
Community Resources Coordinator for the ComALERT reentry program, 
assisting individuals paroled to Brooklyn in obtaining vital supportive 
services. The services include outpatient drug treatment, job 
placement, vocational training, free GED courses, health benefits, and 
VESID entitlements. The fact that ComALERT is sponsored by the Kings 
County District Attorney's Office plays an essential role and has a 
positive impact on each agency providing supportive services to our 
ComALERT clients. And even though there are clients who walk into 
ComALERT initially resistant because it's a program sponsored by the 
DA's office, once they become engaged by the re-entry program and 
involved in the different services provided at ComALERT, they're 
anxious to come back.
    I know how imperative it is for a formerly incarcerated individual 
to have these essential supportive services in order to successfully 
reintegrate back into the community. Supportive services are 
particularly important for a population that is highly at risk to 
recidivate because they don't have access to effective substance abuse 
treatment, or have any marketable skills to secure employment. As a 
former client, and now as a productive community member and a social 
services professional, my personal experiences have shown me in a 
number of ways that programs like ComALERT and DTAP aren't only 
effective at restoring lives. Thanks to the enlightened thinking of 
civic leaders like Brooklyn DA Charles Hynes, I've now also seen how 
these programs have solid economic and public safety benefits that each 
and every one of us can all enjoy.

[GRAPHIC] [TIFF OMITTED] T4772.010

              Prepared Statement Director John P. Walters

                              THE STRATEGY

    On February 12, 2002, the President released his Administration's 
first National Drug Control Strategy, a balanced approach to reducing 
drug use in America focusing on three national priorities: stopping use 
before it starts, healing America's drug users, and disrupting the 
market for illegal drugs. All three of these priorities support and 
complement each other and are necessary to reducing the problem of drug 
consumption in the United States. As prevention and treatment programs 
reduce the domestic demand for drugs and the size of the drug-using 
market in the United States, the efforts of Federal, State, local, 
tribal, foreign, and international law enforcement agencies serve to 
further destabilize the business of drug producers and traffickers, 
reducing the scale and impeding the flow of drug profits to the 
criminal organizations and terrorist groups that benefit from them.
    This Administration articulated a clear plan to reduce the supply 
of illegal drugs in America, based on the insight that ``the drug trade 
is in fact a vast market, one that faces numerous and often overlooked 
obstacles that may be used as pressure points.'' The market disruption 
component of our strategy has been of particular importance. It has 
reduced not only the number of Americans who experience the sorrow of 
addiction but also the number of innocent people around the world who 
are victimized by organized crime and terrorism. Its most effective 
operation involves a comprehensive approach that combines cooperation 
with international organizations, the work of courageous allies in 
countries such as Colombia, Mexico, and Afghanistan, improved border 
security, enhanced intelligence, record-setting interdictions on the 
high seas, and the targeting of precursor chemicals and criminal 
finances.
    These pressure points exist all along the illegal drug supply 
chain, where traffickers undertake such challenging tasks as overseeing 
extensive drug crop cultivation operations, importing thousands of tons 
of essential precursor chemicals, moving finished drugs over thousands 
of miles and numerous national borders, distributing the product in a 
foreign country, and covertly repatriating billions of dollars in 
illegal profit. This Administration has aggressively attacked these 
pressure points, and as a result we have seen that drug trafficking 
does indeed operate like a business, with traffickers and users alike 
clearly responding to market forces such as changes in price and 
purity, risk and reward.
    By interfering with these market forces, law enforcement has made 
it more likely that those who have not used illicit drugs will never 
initiate use, that current drug users will seek help, and that drug 
dealers will face greater risks and reap smaller profits. We are 
routinely told by critics (and you will have been offered testimony 
before this Committee) that our supply reduction activities are 
ineffectual. This testimony is unreliable, and is not supported by the 
actual facts. For a dramatic example of the power of supply reduction, 
consider that when domestic law enforcement efforts dismantled the 
world's largest LSD production organization in 2000, within a year the 
reported rate of past-year LSD use by young people (8th, 10th, and 12th 
graders combined) plummeted--a drop of 58 percent from 2001 to 2007.
    The effect can be seen for yet another drug of concern--Ecstasy, 
use of which had been rising steeply as a drug associated with the 
youth ``rave'' scene in the United States. internationally, the 
disruption of several major MDMA (Ecstasy) trafficking organizations in 
Europe led to an 80 percent decline in U.S. seizures of MDMA tablets 
from abroad between 2001 and 2004, followed by a consequent 50 percent 
drop in the rate of past-year use among young people between 2001 and 
2007.
    Similarly, between 2002 and 2006 dedicated Federal, State, and 
local efforts, including the passage of the Combat Methamphetamine 
Epidemic Act of 2005, P.L. 109-177, tightened controls on 
methamphetamine's key ingredients and contributed to a 60 percent 
decline in the number of superlab and small toxic lab seizures and a 59 
percent percent decrease in past-year methamphetamine use among the 
Nation's youth between 2001 and 2007. That is, controlling the supply 
of methamphetamine by attacking precursor chemicals effectively stemmed 
what had been a rising epidemic of both production and use of this 
devastating drug. Our supply control success against methamphetamine 
has been carried forward into 2007, when data from DEA's STRIDE data 
base on the price and purity of this drug show a stunning 31 percent 
decrease in purity and 73 percent increase in price from the first 
quarter to the third quarter of 2007.
    Further international controls on the essential precursor chemicals 
involved in methamphetamine production are constricting the 
availability of this drug even more. The overarching principle is that 
supply reduction remains an essential component of any effective drug 
control policy, and works best when offered in conjunction with 
effective prevention and treatment efforts.

         OVERALL RESULTS OF THE NATIONAL DRUG CONTROL STRATEGY

    The release of the Administration's first National Drug Control 
Strategy marked a turning point. Results from the Monitoring the Future 
study for calendar year 2002 revealed a downturn in youth drug use 
after a decade in which rates of use had risen and remained at high 
levels. Six years later, this decline in youth drug use continues and 
is mirrored by declines in positive workplace drug testing in the U.S. 
adult workforce. The percentage of workers testing positive for 
marijuana use declined by 29 percent from January 2000 to December 
2007. Workplace drug test positives for methamphetamine among workers 
is declining after an increase during the first half of the decade, 
falling by 51 percent between 2005 and 2007. Perhaps most remarkably, 
overall drug test positives, as measured by Quest Diagnostics' Drug 
Testing Index, show the lowest levels of drug use in the adult 
workforce since 1988.
    Further, there has been substantial progress against South American 
heroin, the leading source of heroin in the United States. Aggressive 
eradication reduced Colombian opium poppy cultivation by 65 percent 
from 2001 to 2006. This reduction, combined with increased seizure, 
yielded a 22 percent decrease in the retail purity of Colombian heroin 
and a 33 percent increase in the retail price from 2003 to 2004. This 
progress continues, with eradication teams in Colombia now reporting 
difficulty in locating any significant concentrations of opium poppy 
and with poppy cultivation falling to the lowest levels since surveys 
began in 1996.
    Most recently, domestic and international law enforcement efforts 
have combined to yield a historic cocaine shortage on U.S. streets. Law 
enforcement reporting and interagency analysis coordinated by the 
National Drug Intelligence Center (NDIC) indicate that numerous major 
U.S. cities with large cocaine markets experienced sustained cocaine 
shortages between January and September 2007, a period in which Drug 
Enforcement Administration (DEA) reports indicated a 44 percent climb 
in the price per pure gram of cocaine. This cocaine shortage affected 
more areas of the United States for a longer period of time than any 
previously recorded disruption of the U.S. cocaine market. (In fact, 
and contrary to testimony before the Committee that these advances 
against cocaine are ``short lived,'' our most recent data now being 
analyzed indicate that the disruption of cocaine availability in the 
United States has now extended through 15 months.)
    NDIC analysis of workplace drug testing data and emergency room 
data indicates that this sustained cocaine shortage was attended by 
reduced cocaine use during the first half of 2007. The national rates 
of positive workplace drug tests for cocaine use were 15 percent lower 
during the second quarter of 2007 than during the second quarter of 
2006 (the rates are currently at the lowest levels ever recorded in the 
QUEST data base). Among the 30 cities for which more focused workplace 
drug testing data are available, 26 experienced decreases in the rates 
of positive workplace drug tests for cocaine during the second quarter 
of 2007 in comparison to data from the same period of 2006.
    Further evidence of the impact of the cocaine shortage can be found 
in reports from the Substance Abuse and Mental Health Services 
Administration's (SAMHSA's) Drug Abuse Warning Network (DAWN), which 
provides emergency room admissions data for 10 of the 38 cities where 
cocaine shortages were observed. In 9 of those 10 cities, the 
percentage of drug-related emergency department visits involving 
cocaine was lower during the second quarter of 2007 than during the 
same period of 2006.
    Additional intelligence community analysis indicates that the 
cocaine shortage is most likely the cumulative result of interdiction 
and organizational attack efforts in the source zone and the transit 
zone. Dedicated efforts by the Government of Colombia, massive seizures 
of cocaine in transit, and aggressive Mexican and U.S. law enforcement 
efforts targeting large Mexican drug trafficking organizations have 
combined to disrupt the flow of cocaine and other illicit drugs--
particularly methamphetamine, which also has experienced a rise in 
price and decline in purity--into the United States.
    With the lessons learned from this historic cocaine shortage, and 
with the continued partnership of the Mexican Government, U.S. law 
enforcement agencies are taking action to leverage this unprecedented 
opportunity to expand international cooperation and aggressively attack 
the cocaine market. Support for the Merida Initiative will ensure that 
these efforts will be enhanced and continued.
    The fight against illegal drug production and the narco-trafficking 
organizations that control this market has produced other profound and 
positive changes for our international partners. For instance, the 
political, military, economic and counternarcotics landscape in 
Colombia has changed dramatically since 2000. For the first time in its 
history, the Colombian Government has established a police presence in 
each of the country's 1,099 municipalities. Increased security of roads 
and highways has allowed for greater freedom of movement for people and 
commerce, and contributed to impressive economic progress and the 
reduction of poverty. Since 2002, violence indicators have been reduced 
to their lowest levels in decades. Homicides decreased by 40 percent, 
kidnappings by 83 percent, terrorist attacks by 76 percent, and attacks 
against the country's infrastructure by 60 percent through the end of 
2007.
    Ambitious programs of eradication, interdiction, extradition, 
counter-terror military and police operations, anti-money laundering 
efforts, and prosecution of drug organizations and their leaders have 
dramatically improved security and weakened the narco-terrorist 
infrastructure. Due to eradication and interdiction, significant 
quantities of cocaine are prevented from entering the U.S. and other 
markets and narco-terrorist strongholds in large coca producing areas 
like Putumayo are being challenged. Interdiction has successfully 
attacked the cocaine air bridge routes used by narcotics traffickers 
and forced them to use more expensive and slower maritime and land 
routes. Moreover, this success against cocaine has been accompanied by 
comparable progress against Colombian heroin production, which has 
decreased dramatically (as mentioned above), due in large part to 
focused Colombian military and police efforts. Over 620 narcotics 
traffickers and other criminals have been extradited to the United 
States for trial since 2002.
    The overarching objective of the U.S. supply reduction strategy is 
to reduce the quantity of illegal drugs available in the United States. 
The aerial spraying campaign in Colombia is a part of that strategy and 
has been focused on attacking coca production at the source. Aerial 
spraying is considered an effective and efficient way to get at the 
thousands of hectares planted in remote and inaccessible regions of 
Colombia. Although some point to recent U.S. Government and UNODC 
estimates that indicate possible increases in Colombian cocaine 
cultivation, there are other metrics that must be weighed when 
evaluating the effectiveness of the supply reduction strategy.
    We have concluded that potential production is a better measure of 
our success against the cocaine market than the cultivation estimate 
alone. The estimate of cocaine production from Colombia is based on 
several factors: hectares of coca cultivation, leaf yield per hectare 
per year, the alkaloid content of the leaf, cocaine base laboratory 
efficiency and cocaine hydrochloride laboratory efficiency. The U.S. 
Government is constantly reviewing and updating these factors to ensure 
as accurate an estimate of production as possible and this makes it 
difficult to compare estimates from year to year.
    Counting only the number of hectares of coca will not account for a 
key variable that comprises potential production, which is the coca 
leaf yield per hectare. We should not assume that all coca fields are 
equally productive. We have been able to document that aerial spraying 
can reduce coca yield while the plant is still counted as a fully 
mature plant in the annual estimate. That is, we can document progress 
against potential production, reducing the efficiency and value of 
cocaine cultivation, even though the ``footprint'' of hectares of 
cultivation appears similar.
    Further, even our own estimate of cultivation itself is subject to 
several changing variables. For example, in an effort to improve the 
accuracy and comprehensiveness of the U.S. estimate, the 2005 survey 
expanded by 81 percent the size of the landmass that was imaged and 
sampled for coca cultivation. The newly imaged areas showed about 
39,000 additional hectares of coca. Because these areas were not 
previously surveyed, it was impossible to determine for how long they 
have been under coca cultivation. Because of this uncertainty and the 
significantly expanded survey area, a direct year-to-year comparison is 
not possible--this was a break in the data trend line. (In fact, if one 
held constant the area surveyed between successive years, actual 
cultivation within that area has fallen, and fallen most steeply in 
sectors affected by aerial spray.) The 2006 area surveyed was again 
increased, this time by 19 percent compared with 2005, resulting in an 
increase of 13,000 hectares from the 2005 estimate; almost all of the 
increase was identified in these newly surveyed areas. Because these 
areas had not been previously surveyed, it is not possible to know with 
certainty if the coca found in these areas is in fact newly planted and 
had not been producing for a period of time and reflected an improved 
understanding of where coca was growing in Colombia.
    Rapid crop reconstitution, a move to smaller plots, and the 
discovery of coca in previously unsurveyed growing areas, have posed 
major challenges to the techniques and methodologies used to understand 
Colombia's coca cultivation and cocaine output. After losing one-third 
of the estimated coca cultivation to herbicidal spraying between 2001 
and 2004, traffickers and growers implemented the widespread use of 
techniques such as radical pruning and replanting from seedlings. Such 
countermeasures result in crops that are initially unproductive or 
significantly less productive than mature fields. Once again, the 
impact of our eradication activities is to make cocaine production more 
costly and less efficient and the enterprise less viable for 
narcotrafficking organizations.
    Colombia's anti-drug efforts have also affected the FARC (Fuerzas 
Armadas Revolucionarias de Colombia or Revolutionary Armed Forces of 
Colombia), a terrorist organization that depends on drug trafficking, 
kidnapping, and theft to sustain itself. According to a U.S. Government 
study, FARC drug profits declined from $90-150 million in 2003 to $60-
115 million in 2005. The FARC's overall profit per kilogram of cocaine 
declined from a range of $320-460 in 2003 to $195-320 in 2005. Coca 
eradication and other activities drove up FARC costs related to its 
drug activities, particularly the cost of buying cocaine products from 
farmers and producers. That trend has continued.
    Supply reduction remains an effective tool for disrupting the 
entire market of illicit narcotics and enabling the U.S. Federal, 
State, and local levels of government and our allies to apply pressure 
to the links of this chain from production through transit and all the 
way to sale on the streets of the U.S. Furthermore, Plan Colombia and 
our follow-on Consolidation Strategy are a prime example of how supply 
reduction strategies not only disrupt the flow of narcotics bound for 
the U.S., but also combat the regime corrosion caused by Drug 
Trafficking Organizations (DTOs).
    The expanded presence of the GOC throughout Colombia has been 
instrumental in reclaiming key illicit cultivation areas from the FARC 
and other DTOs. These actions against the supply chain are most 
effective when coupled with programs to provide alternative, 
sustainable livelihoods, another mainstay of Plan Colombia. Once an 
area is secured by Colombian security forces, development and economic 
projects, including those of USAID are established to solidify the 
GOC's presence and provide legitimate sources of income.
    Importantly, the benefits of our efforts are not restricted to our 
host-nation partners. Effects on communities in the United States are 
likewise positive. As we have demonstrated, there has been a 24 percent 
decline over the past 6 years in youth drug use. Workplace drug testing 
is showing a continuing unprecedented drop in cocaine positive tests, 
dropping to their lowest levels ever. Coupled with these falling demand 
indicators, there has been a dramatic shortage in both cocaine and 
methamphetamine supply throughout the U.S. over this past year, as 
demonstrated by law enforcement reporting and data showing falling 
purity, rising prices, record seizures, and declining cocaine 
productivity in Colombia. Finally, the narco-terrorists in Colombia and 
the criminal cartels in both Colombia and Mexico have received crushing 
blows.

         WHAT ARE THE FACTS ABOUT DRUG CRIME AND INCARCERATION?

    Our response to drug crime in America is far more just and 
effective than the conventional mythology would have it. While 
incarceration of individuals convicted of drug offenses linked to 
trafficking or violence remains a central and appropriate response by 
the U.S. criminal justice system, for non-violent drug offenders, drug 
courts are a viable alternative. Drug courts have reduced recidivism, 
substance abuse, and criminal justice costs. Under President Bush's 
leadership, the number of drugs courts has more than doubled since 
2001, with more than 2,100 drug courts currently operating and an 
additional 285 in the planning or development phase. (For violent drug 
offenders, a drug court is not an appropriate sanction and instead 
incarceration is imposed.)
    While drug courts and supervised, sanctioned treatment represents 
our major policy thrust, many misconceptions persist about the nature 
and type of offenses of those who are ultimately incarcerated for a 
drug charge. The Bureau of Justice Statistics records data on drug 
offenders. In the Federal system, 53 percent of the overall offender 
population is imprisoned for drug offenses, which are, overwhelmingly, 
trafficking offenses. Contrary to simple assertions that marijuana 
offenses are somehow leading to a surge in prisoners, the table below 
indicates that those individuals in the Federal system incarcerated for 
marijuana/hashish has actually decreased as a percentage of all Federal 
drug offenders from 1997 to 2004.

------------------------------------------------------------------------
                                         Percent of Drug Offenders
                                 ---------------------------------------
  Type of Drug Involved in the           State              Federal
             Offense             ---------------------------------------
                                    2004      1997      2004      1997
------------------------------------------------------------------------
Marijuana/Hashish...............    12.70%    12.90%    12.40%    18.90%
Cocaine/Crack...................    61.80%    72.10%    65.50%    65.50%
Heroin/Other....................    12.20%    12.80%     8.10%     9.90%
Opiates
  Depressants...................     2.20%     1.20%     1.40%     0.60%
  Stimulants....................    18.60%     9.90%    18.70%    31.00%
  Hallucinogens.................     1.70%     1.10%     2.30%     1.70%
------------------------------------------------------------------------
Note: More than one type of drug may have been involved in the offense.

    The lesson offered by data on the incarcerated population at the 
State level is even more striking. Roughly 20 percent of offenders in 
that system are incarcerated for drug offenses. Note, however, that the 
percentage of offenders in the State system that are marijuana-
possession only offenders is less than three-tenths of 1 percent of the 
entire State incarcerated population. This information is gleaned from 
the 2004 Survey of Inmates in State Correctional Facilities, derived 
from a sample of State offenders.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
Drug possession offenders (all drug types) = 6.0% of State prisoners
------------------------------------------------------------------------
Drug offenders, no prior sentences (for any crime) = 4.4% of State
 prisoners
------------------------------------------------------------------------
Drug offenders held for crimes involving marijuana = 2.7% of State
 prisoners
------------------------------------------------------------------------
Drug offenders held for crimes involving ONLY marijuana = 1.4% of State
 prisoners
------------------------------------------------------------------------
Marijuana-only drug offenders, no prior sentences = 0.4% of State
 prisoners
------------------------------------------------------------------------
Marijuana-only possession offenders = 0.3% of State prisoners
------------------------------------------------------------------------
Marijuana-only possession offenders, no prior sentences = 0.1% of State
 prisoners
------------------------------------------------------------------------

    The assertion that low-level marijuana prosecutions, in particular 
for simple possession, are somehow substantial factors in prison 
incarcerations is a glaring distortion of the actual facts. To take a 
specific example, though you have been told in testimony that more than 
30 percent of those State prison inmates in Maryland are incarcerated 
for marijuana possession, that testimony is simply unsustainable. Data 
from the State of Maryland indicate that there are approximately 4,830 
inmates in the State of Maryland serving time for any drug offense-- 
possession and distribution for any illicit drug, not just marijuana. 
That figure for all drug offenses amounts to only 21.5 percent of their 
entire inmate population. To assert that one third of those serving 
time in State prison are doing so on a marijuana possession conviction, 
a small subset of all drug offenses, is dangerously misleading. (If 
that were true, Maryland would have a rate of marijuana possession 
incarceration more than 100 times the national average.) No Maryland 
State prison data support that erroneous testimony.
    Almost all of the individuals serving time for cocaine base (crack) 
offenses in the Federal system are due to distribution-related, rather 
than possession, offenses. Less than 1 percent of all crack defendants 
were convicted of simple possession with the remaining 99 percent 
convicted of distribution-related offenses. (U.S. Sentencing 
Guidelines, Use of Guidelines and Specific Offense Characteristics: FY 
2006, and letter from Alice Fisher, Assistant Attorney General, 
Department of Justice, to Ricardo Hinojosa, Chair, U.S. Sentencing 
Commission, November 1, 2007). Tougher penalties for crack were enacted 
by Congress in the 1980s to respond to the growing threat drugs, 
particular cocaine and crack, posed to American communities.
    As has been noted, the death of rising basketball star Len Bias 
from a cocaine overdose shocked the American conscience. At the same 
time, crack ravaged our inner cities. Congress responded by passing 
mandatory minimums including the stiff penalty for crack which has 
recently come under great scrutiny.
    As a nation, we have made great progress against drug abuse and its 
consequences since the 1980s. The widespread use of cocaine powder and 
its dangerous alternative crack have lessened dramatically, and at the 
Federal level, we have put mechanisms in place to respond to the 
various threats posed by drugs. Not only is law enforcement equipped to 
respond to this threat, but other sectors of society have been 
mobilized as well, in accord with our balanced drug control strategy. 
This Administration has increased capacity and expanded consumer choice 
of treatment for drug abuse. With assistance from Congress, we have had 
historically robust prevention messages aimed at youth. This progress 
has demonstrated remarkable results in the past several years.
    Again we draw your attention to a central measure of our drug 
policy: drug use among youth has declined 24 percent since 2001. We 
know from research that declines of that magnitude in the youth 
population produce benefits for them and for their communities that 
will stay with them throughout their lives. We must stop drug use 
before it starts, and where drug use is found, we must continue to 
support the institutions that respond to the ravages of drug abuse and 
its effects on families and communities, in particular poor and 
minority communities, where drug trafficking and abuse are profoundly 
devastating.
    The arguments above should serve as an effective refutation of a 
common caricature of the Administration's drug control policies-- that 
we have excessively relied on punitive law enforcement remedies over 
prevention and treatment efforts and a public health understanding of 
drug addiction. This caricature is a fraudulent portrait, painted most 
frequently by those intent upon demonstrating the futility of the fight 
against illegal drugs, so that their own policies of acquiescence look 
more palatable by contrast. Their characterizations are belied by the 
facts. We have a balanced strategy that takes very seriously a public 
health understanding of the disease of addiction, and that integrates 
that public health comprehension with effective use of the law.
    The Administration's drug control budget, in fact, makes an 
enormous investment in prevention and treatment programs. A basic tenet 
of the Administration has been to request funding for programs proven 
to work and reengineering those that do not. This approach has been 
effective, as can be seen in the drastic reductions in youth drug use 
since 2002.
    The National Youth Anti-Drug Media Campaign educates youth on the 
dangers of drug abuse. Recent results have been striking. Youth use of 
any illicit drugs declined by 24 percent since 2001, while perceptions 
of risk in using drugs and an increase in norms of social disapproval 
for drug use climbed. Moreover, the declines were steepest in the very 
target audience (youth 14-16) and with respect to the target drug 
(marijuana) on which the Campaign focused.
    Critics of our drug control policies, when confronted with the fact 
of a dramatic downturn in youth drug use since 2001, and confronted 
further with dramatic downturns in not only marijuana use but, even 
more strikingly, cocaine and methamphetamine QUEST workplace drug 
testing positives over the same time period, and further confronted 
with the striking evidence of constricted availability of cocaine and 
methamphetamine as attested by the STRIDE data on price and purity 
changes, try nevertheless to cling to their fundamental insistence that 
``nothing has worked.''
    To do so, however, they have to move the goalposts. Rather than 
examining drug use among youth, for instance, they will turn instead to 
a new measure, ``perceived availability'' as self-reported by young 
people when asked whether or not they thought they could ``very 
easily'' or ``fairly easily'' obtain a drug. This response enables 
critics to claim that therefore ``drugs are more available than ever.'' 
The facts show otherwise. Faced with the clear data showing declines in 
use and availability, critics that advance this measure of self-
reported perceptions are relying on a remarkably weak measure of actual 
changes among this population.
    In our experience, opponents of the Administration's drug control 
policies habitually make multiple assertions about our Strategy, and 
will further so testify before this Committee, that are simply not 
supported by the data. For instance, you were told that the data and 
research base for our policies, even in the face of a charge from the 
National Academy of Sciences in 2001 to strengthen our capacities, 
remains ``extraordinarily slight'' and that in the 7 years since that 
recommendation, ``nothing much has changed.'' This charge is 
misinformed.
    Just to mention a sampling of new or strengthened data and research 
developed by this office over the past 7 years, one notes the additions 
of: 1) The QUEST workplace drug testing system, a nationwide 
examination of nearly 10 million drug tests annually, brought in 
specifically to respond to an NAS hope for more biometric measures of 
drug use; 2) Efforts to develop a biometric-based drug consumption 
estimate in the NSDUH; 3) The development of a National Seizure System 
that consolidates reporting of seizures at all Federal, state, and 
local levels; 4) Developing a Clandestine Lab Seizure System of 
reporting on nationwide meth lab incidents, helpful in tracking the 
nearly 60 percent reduction in such labs since 2005; 5) Developing a 
Cocaine Monitoring Program in conjunction with DEA to provide a 
scientific sampling system for cocaine price and purity nationwide; 6) 
Marked improvements to the methodology to analyze DEA's STRIDE data 
system that records the price and purity of purchased and seized drugs 
nationwide, a development specifically called-for by the NAS; and 7) 
Re-constructing and funding from internal ONDCP funds the ADAM 
collection of data from arrestees (after Congressional appropriations 
had failed to support the program--oddly, one critic in testimony 
before this Committee stated that ADAM had been ``eliminated'' and that 
``no one of the agencies that benefit from these data was willing to 
provide financial support.'' ONDCP is now in its second year of data 
collection in this program, in which we have invested more than $2 
million.); 8) The addition of new questions to the NSDUH probing the 
dimensions and sources of prescription drug abuse; and 9) The 
development of a new Targeting and Mapping capacity, that allows the 
targeted distribution of drug policy resources focused on the 
geographic and temporal aspects of both drug treatment need and 
continued as well as emerging drug threats.
    Further, we are routinely told that the dangers of marijuana use, 
especially by young people, are overstated in our Strategy. 
Notwithstanding the facts that today's more potent marijuana is the 
leading cause of drug treatment admission for youth, more consequential 
than all other drugs combined and greater even than alcohol in its 
impact, critics will seek to downplay this danger by claiming that 
those seeking treatment for marijuana dependency do so only because 
they are required to do so by the courts.
    In fact, in testimony before this Committee it was argued that the 
supposedly ``very high share'' of those entering treatment through 
criminal justice referrals that dependent users are ``motivated by the 
desire for a reduced penalty from the court rather than help in dealing 
with marijuana use or dependence.'' This statement is misleading. In 
reality, the marijuana criminal justice referral rate to treatment is, 
according to TEDS, approximately 57 percent of cases. However, the 
criminal justice referral rate to treatment for methamphetamine is 
itself nearly 50 percent, with the rate for alcohol referrals closely 
behind. Should one conclude that methamphetamine abuse, or alcohol 
intoxication, have thereby been shown not to be real dangers?
    Clearly the correct conclusion is that the criminal justice system 
is playing a proper role in identifying when a defendant has an 
underlying substance abuse problem that is driving their criminal 
behavior, and is appropriately referring that person to the supervised, 
sanctioned treatment that only the court itself can require. The 
percentage of referrals to treatment from criminal justice is linked to 
the dramatic increase in drug courts that emphasize treatment over 
incarceration. Drug courts are a signature program that this 
Administration has promoted, and should be seen as a positive 
development. Moreover, these facts support the realization that keeping 
criminal sanctions against drug use, including marijuana, is a powerful 
adjunct to the goal of achieving not only prevention through 
deterrence, but great utilization of successful treatment, a key goal 
of demand reduction.
    Further, the dangers of current marijuana use can be seen even more 
clearly in the sharp increase in admissions to emergency rooms where 
marijuana is cited as the cause of the emergency episode. The 
increasing role of marijuana can be seen in a 198 percent increase in 
emergency mentions between 1994 and 2002 as measured by DAWN, and in 
the fact that marijuana now surpasses heroin in the annual number of 
mentions for emergency room admissions. This rise in emergency cases is 
indeed driven by the dangers of the drug itself.
    It's time to stop accepting unsubstantiated assertions that 
marijuana use is not a societal danger, and that laws against marijuana 
possession and trafficking are not an essential feature of a successful 
drug control strategy. Not only is marijuana the most prevalent drug of 
abuse in our society, the proceeds from marijuana sales are a major 
factor in maintaining international drug cartels that seek to destroy 
our way of life. An effective strategy against marijuana use, 
particularly youth use, is a central pillar of our success in pushing 
back against all illegal drug use.

                    THE ILLUSION OF HARM REDUCTION:

    Some critics of our current policies, in testimony before the 
Committee, made reference to a supposed alternative policy approach, 
labeled ``harm reduction.'' Advocates for these measures, found largely 
in Europe and including those calling for the legalization of all 
drugs, advance the notion that we should accept drug use as inevitable, 
and therefore the goal of drug control should be to enable or sustain 
continued drug use under more regulated circumstances. They will 
promote such measures as syringe distribution programs to provide 
injection drug users with the means to continue injecting, in the 
belief that they are thereby reducing the ``consequences'' of drug use 
such as disease transmission. We find this belief tragically mistaken.
    Not only is it the case that the most effective way to reduce 
diseases associated with continued drug use is to reduce the incidence 
and prevalence of drug use itself, we further know that treatment for 
the disease of drug addiction is the most effective and humane 
intervention we can make. Yet ``harm reduction'' advocates nevertheless 
push beyond syringe distribution for policies like ``safe'' injection 
rooms, government sponsored distribution of heroin to heroin addicts, 
and distribution of ``safe'' crack pipes, in an effort to lower costs 
and consequences of actually fighting back against drug use. Nowhere 
have we seen sound scientific evidence that such measures produce the 
desired policy effects, and everywhere such measures are 
institutionalized we see evidence of continued drug addiction, disease 
transmission, and unabated criminality.
    As was stated in testimony before this Committee, ``harm 
reduction'' advocates ``might even be willing to tradeoff a little 
increase in drug use if you see a reduction in the total adverse 
consequences that come from it.'' To argue that this country's drug 
policy should be ``willing'' to accept more victims of drug use is a 
counsel of despair, and, we firmly believe, will turn out to provide, 
as surrender always provides, only the illusion of peace. Adopting 
``harm reduction'' policies that acquiesce in continued drug use will 
reduce neither the ravages of drug use nor the pain and destruction 
that drugs cause in persons and their communities.

                               CONCLUSION

    On December 11, 2007, the President appeared before a group of 
government officials, foreign dignitaries, and ordinary Americans to 
discuss the problem of illegal drugs in the United States. Nearly 6 
years had passed since he had stood before a similar group to announce 
the Administration's first National Drug Control Strategy. This time, 
however, the President described not a rising threat, but one in 
retreat:

        ``Because Americans took action, today there are an estimated 
        860,000 fewer children using drugs than 6 years ago. Because 
        Americans took action, because grassroots activists stood up 
        and said `We've had enough, ' because law enforcement worked 
        hard--communities are safer, families are stronger, and more 
        children have the hope of a healthy and happy life. ``

    Supply reduction and demand reduction operating together 
demonstrably work, and the progress the United States has achieved in 
reducing drug consumption and trafficking is yet another indication 
that when our Nation rallies its greatest resource--its people--to 
confront an important problem, that problem can be made smaller. 
Skeptics and advocates of drug legalization have long argued that our 
fight against drugs is hopeless, but the clear evidence tells us that 
our Nation's fight against drugs is not only a necessary battle from 
which we must not shirk our responsibility; it is a battle that can be 
won. In fact, we are winning. Effective drug control policies have 
saved lives and strengthened our country.

[GRAPHIC] [TIFF OMITTED] T4772.011

  

                                  <all>

</pre></body></html>
